     U.S. Department of the Interior
     Oflice of Inspector General




             ADVISORY REPORT


    THE DEL WEBB LAND EXCHANGE IN NEVADA,
         BUREAU OF LAND MANAGEMENT

                   REPORT NO. 98-I-363
                        MARCH 1998




i
             United States Department of the Interior
                            OFFICE   OF INSPECTOR GENERAL
                                     Washington, DC. 20240




MEMOIUNDUM

TO:
                                                                          .
FROM:


SUBJECT SUMMAR Y: Final Advisory &port for Your information - “The Del Webb Land
                  Exchange in Nevada, Bureau of Land Management”
                  (No. 98-I-363)

Attached for your information is a copy of the subject final advisory report, which is being
issued as part of our followup review of our July 1996 audit report “Nevada Land Exchange
Activities, Bureau of Land Management” (No. 96-I-1025). We will also issue a report
focusing on the Bureau of Land Management’s actions to implement the recommendations
included in our July 1996 report. This advisory report is being issued because of our concerns
regarding the Bureau’s conformance with applicable standards, procedures, and controls
relating to the appraisal and valuation of land for the Del Webb exchange (No. N-60167).

During its processing of the exchange, the Bureau of Land Management’s Washington Office
did not fully conform to established standards, procedures, and controls for appraisals and
land valuations and did not just@ or document the propriety of its actions. Specifically, the
Bureau’s Washington Office (1) allowed Del Webb to use an appraiser who was not
preapproved by the Nevada State Office, which was not in accordance with established
statewide procedures and practice; (2) allowed the Del Webb appraiser to perform a
development-based appraisal of the selected Federal land, which was not in accordance with
the Federal standards which state that comparable sales should be relied on when adequate
sales data are available; and (3) relieved the Nevada State Chief Appraiser of his appraisal
review responsibilities for this exchange, which was contrary to the statewide procedures and
guidance in the Bureau Manual. In addition, the Bureau issued a contract for an appraisal
review to a tirm nominated by Del Webb. As a result, if external pressure had not caused the
Bureau to obtain a second appraisal, the Government would have lost $9.1 million on the
Federal land selected for exchange because the development approach was used in the initial
appraisal

Although the report contained no recommendations, we stated that the Bureau should
establish a moratorium on land exchanges in Nevada until new control processes are
instituted, including having an external Departmental team review and provide advice on
exchanges. We will formally recommend that such processes and an external team be
established in our follow-up report.

In response to the drawlreport, the Director, Bureau of Land Management, stated that he did
not believe a moratorium was necessary because of its significant impact on relati.onships
which the Bureau has with various local, county, and state governments. In addition, the
Director stated that he had established procedures for a second-level review of land
exchanges involving land valued in excess of $500,000. Further, the Director stated that he
was considering a Bureauwide land exchange team to assist in high priority exchanges.

Ifyou have any questions concerning this matter, please contact me at (202) 208-5745
or Mr. Ronald K. Stith, Acting Assistant Inspector General for Audits, at (202) 208-4252.


Attachment
                                                                                 W-IN-BLM-00 1-97(A)


                United States Department of the Interior
                                 OFFICE OF INSPECTOR GENERAL
                                           Washington, DC. 20240




                                   ADVISORY REPORT
Memorandum

To:           Director, Bureau of Land Management

From:         Robert J. Williams
              Acting Inspector General

Subject:      Advisory Report on the Del Webb Land Exchange in Nevada, Bureau of
              Land Management (No. 98-I-363)

                                       INTRODUCTION
This report provides, for your information, the results of our review of the Del Webb
Corporation land exchange administered by the Bureau of Land Management. We are issuing
this report as part of our followup review of our July 1996 audit report “Nevada Land
Exchange Activities, Bureau of Land Management” (No. 96-I-1025). We will also issue a
report focusing on the Bureau’s actions to implement the recommendations included in our
July 1996 report, We are issuing this advisory report because of our concerns regarding the
Bureau’s conformance with applicable standards, procedures, and controls relating to the
appraisal and valuation of lands for the Del Webb exchange (No. N-60167).

BACKGROUND

The Bureau of Land Management is responsible for managing and protecting over 260 million
acres of Federal land, of which about 48 million acres are in the State of Nevada. The
Congress has emphasized the use of land exchanges and fee purchases to acquire lands
containing resource values of public significance and to improve the manageability of Federal
land by consolidating its land ownership. The Bureau prefers to acquire land through
exchanges, which may be initiated by the Bureau or other interested parties called
proponents.’ In recent years, the Bureau has identified about 70,000 acres of Federal land
for disposal in the Las Vegas Valley of Nevada, which continues to be one of the fastest
growing metropolitan areas in the United States. The potential for real estate development
in the private market associated with this growth in the Valley has created significant interest
in acquiring available Federal land.




‘The Bureau prefers to aC@re lands through exchauges because of the relatively low impact that exchanges have
on local government tax revenues.
The Bureau conducts land exchanges under the authority of Section 206 of the Federal Land
Policy and Management Act of 1976 (Public Law 94-579), which authorizes the Secretary
of the Interior to dispose of Federal land by exchange when the public interest will be well
served. Under Section 206, the values of the lands exchanged must be equal or, if not equal,
must be equalized by a cash payment by either party except in circumstances where the value
of the Federal land transferred by the Government is not more than S 150,000 (the value of
the Federal land transferred in the Del Webb exchange exceeded $150,000). Section 206
specifically directs the Secretary to make the amount of such payments as small as possible
but states that in no event may the value difference between the properties exceed 25 percent
of the value of the Federal land exchanged. On August 20, 1988, the Congress enacted the
Federal Land Exchange Facilitation Act of 1988 (Public Law lOO-409), which granted the
Secretary limited authority to approve adjustments in the values of lands exchanged as a
means of compensating a party for incurring costs such as those for land surveys, mineral
examinations, and title searches, which would ordinarily be borne by the other party. In
December 1993, the Bureau finalized comprehensive regulations for land exchanges (43 CFR
2200) to implement the provisions of both Acts.

The values of the public and private lands exchanged are established by appraisals conducted
in accordance with principles defined in the “Uniform Appraisal Standards for Federal Land
Acquisitions,” issued by the Interagency Land Acquisition Conference in 1992. The
“Standards” stipulates that each appraisal be caretbhy reviewed by a qualified review appraiser
and that the review be documented by a written report indicating the scope of the review and
the actions recommended by the reviewer. The “Standards” also states that appraisals should
rely on the comparable sales method to value Federal property when adequate sales
information is available. Section 93 10 of the Bureau Manual provides specific policies and
procedures for management and administration of the Bureau’s appraisal function, including
the preparation of appraisal reports and the requirement that the State Chief Appraiser should
review appraisal reports and approve the fair market value estimated in those reports in
accordance with professional standards.

PRIOR REVIEW

Our 1996 audit report “Nevada Land Exchange Activities, Bureau of Land Management”
(No. 96-I-1025) concluded that while the Nevada State Oflice had acquired some high quality
properties by exchanging lands with private entities, it did not consistently follow prescribed
land exchange regulations or procedures or ensure that fair and equal value was received in
completing three of the four exchanges we reviewed. As a result, we estimated that the
Government may have lost revenues totaling about $4.4 million in completing the three
exchanges. In addition, we concluded that the State Office acquired about 2,500 acres of
land, with an exchange value of $2.7 million, that had no discernable mission-related purpose.

In our 1996 report, in regard to exchange processing, we recommended that the Director of
the Nevada State Oflice (1) institute competitive procedures (sale or exchange) into the land
disposal process to the maximum extent possible, (2) direct that all easements on Federal land
proposed for disposal be reviewed to veri@ grantee needs and that actions be taken to remove
any easements which are not needed before the Federal lands are exchanged or sold, and (3)

                                               2
establish controls necessary to ensure that land exchanges are processed in full accordance
with applicable laws and regulations and Bureau procedures. At a minimum, these controls
should ensure that the land to be acquired is obtained in conformance with approved land-use
plans or properly executed amendments; that land acquired and disposed of is properly
valued; and that all significant decisions involving the exchange transactions, particularly
those afkcting land valuation, are fully justified and documented in the exchange files. Our
report contained two other recommendations. However, these recommendations were related
to Santini-Burton Act lands and were not specifically relevant to issues discussed in this
report.

                                            DISCUSSION
During its processing of the Del Webb land exchange, the Bureau of Land Management’s
Washington Office did not fully conform to established standards, procedures, and controls
for appraisals and land valuations and did not justify or document the propriety of its actions.
Specifically, we concluded that the Bureau’s Washington Office (1) allowed Del Webb to use
an appraiser who was not preapproved by the State Office, which was not in accordance with
established statewide procedures and practice; (2) allowed the Del Webb appraiser to perform
a development-based appraisal of the selected Federal land, which was not in accordance with
the Federal standards which state that comparable sales should be relied on when adequate
sales data are available; and (3) relieved the Nevada State Chief Appraiser of his appraisal
review responsibilities for this exchange, which was contrary to the statewide procedures and
guidance in the Bureau Manual. In addition, the Bureau issued a contract for an appraisal
review to a firm nominated by Del Webb. As a result, if the Bureau had not obtained a
second appraisal, the Government would have lost $9.1 million on the Federal land selected
for exchange because the development approach was used in the initial appraisal.

The Del Webb Corporation is a publicly traded national real estate company and developer
of planned communities, including its Sun Cities retirement developments in Phoenix,
Arizona; Las Vegas, Nevada; Palm Desert and Roseville, California; Hilton Head, South
Carolina; and Georgetown, Texas. On September 29, 1994, Del Webb submitted a proposal
to acquire, through an exchange with the Bureau, about 4,975 acres of Federal land located
southwest of the City of Henderson, Nevada. 2 According to the exchange proposal, Del
Webb intended to develop the acquired Federal land as “a Master Planned Community
incorporating a mixture of commercial, residential and recreational uses, with the residential
uses to be primarily for an age-restricted community for residents [aged] 55 and over.”

On September 29, 1995, the Bureau’s Nevada State Office determined that the proposed
exchange could be executed in multiple phases over a period of 3 to 7 years, with each phase
including about 1,000 acres of Federal land. The initial exchange transaction, Phase I&




*This was the proponent’s initial estimate of the total acreage desired at the time it proposed the exchange. The
final acreage, for which the appraisal was approved (4,756 acres), was smaller because some of the original
Federal lands selected were eliminated Corn the exchange because they were part of a Wilderness Study Area

                                                        3
was finalized on July 29, 1997, when the Bureau acquired four properties3 totaling 5,328
acres, valued at $10,990,000, in exchange for 922 acres of Federal land in the Las Vegas
Valley, valued at $11,452,639.

Acceptance of Del Webb Appraiser

The Bureau’s Washington Office overrode the Nevada State Office’s usual practice for
appraising Federal land by allowing the Del Webb Corporation to use its own appraiser to
value the Federal land selected for exchange. In order to ensure that the Bureau received fair
market value for the Federal land exchanged, appraisal requests were to be processed through
the State Office, and the appraisals were generally conducted by contract appraisers
preapproved by the Bureau.         Section 93 10 (“Real Property Appraisals”) of the Bureau
Manual requires state directors to impartially administer an appraisal program in accordance
with applicable laws and Departmental policies. Section 93 10.04 of the Bureau Manual
requires that state chief appraisers be responsible for “planning, organizing, and providing
program leadership for the appraisal t?.mction . _ including procuring . . . qualified real estate
appraisal expertise [and] . . approve an amount which represents the Bureau’s estimate of
fair market values.” In carrying out these delegated responsibilities, the Nevada State Chief
Appraiser established procedures that included using appraisal firms under contract with the
Bureau to perform the appraisals of the Federal land selected by proponents in land
exchanges.

In a November 27, 1995, letter to a Del Webb representative, the Nevada State Director4
stated, “We [the Bureau] will appraise both the offered [private] lands and selected [Federal]
lands as we enter into each phase of the exchange.” Additionally, the draft agreement to
initiate the exchange stated:

         The BLM [Bureau of Land Management] or other benefiting Federal agency
         will arrange with a contractor to prepare an appraisal of the selected lands for
         each phase within ninety days of the initiation of that phase of the exchange.
         The appraisal will be done in accordance with federal appraisal standards and
         will be subject to federal review and approval.

However, according to the exchange file chronology, the Del Webb Corporation disagreed
with this appraisal arrangement and informed the Bureau, at a November 30, 1995, meeting
between representatives of the Nevada State Office and the Del Webb Corporation, that it
was having its own appraisal performed of the selected Federal land. Del Webb took issue
with the Nevada State Director’s position on the appraisal in its January 16, 1996, letter
which stated:


3The properties acquired by the Bureau in Phase IA consisted of the Knox, Kent, and Weishaupt Ranches in
Churchill County, Nevada, and the Kings Canyon property in Carson City, Nevada

‘Four offkials, the Deputy Director, the Nevada State Director, the Nevada State Chief Appraiser, and the
Associate District Manager, who were involved in this exchange either have been reassigned to positions within
the Bureau or have left the Bureau for positicms within the Departmmt.
         The proposed [appraisal] language in your draft is far more restrictive than the
         plain language of the Federal Regulations [43 CFR 2201.3 and 3-l] and we
         believe that the process will be aided immeasurably by adhering to federal
         regulations rather than by restricting those regulations with a localized policy
         not specifically designed to produce the best available appraiser.5      ’

The letter from Del Webb did not, however, provide information on how Del Webb was
providing the “best available appraiser.” We noted that, in 1994, the Nevada State Office had
implemented the Statewide practice of using Bureau contract appraisers to ensure that the
Government received fair value for the lands it was exchanging. According to documents in
the exchange file, the Del Webb Corporation contacted the Deputy Director regarding the
initial appraisal and the use of its own appraiser. On February 2, 1996, the Nevada State
Director signed an agreement that initiated the exchange and enabled Del Webb to provide
an appraisal of the selected Federal land. This appraisal provision was contrary to the
provision in the draft agreement submitted to Del Webb by the State Director to initiate the
exchange and was contrary to the State Office’s practice of using its preapproved contract
appraisers.

We did not find any documentation that justified a change from the State Office’s initial
position as reflected in the November 27, 1995, letter to a Del Webb representative and the
draft agreement to initiate the exchange. Our reviews of four land exchanges processed in
the Las Vegas Field Office from June 1, 1995, through August 1, 1997, found that, with the
exception of the Del Webb exchange, Bureau contract appraisers valued the Federal land
selected. In our discussions with Bureau officials from the Nevada State Office, including the
State Director and the Associate State Director, these officials stated that the Deputy
Director had made the decision to allow Del Webb to hire its own appraiser and had directed
the State Director to sign the agreement. The Bureau’s Deputy Director stated that he had
consulted with officials in the Nevada State Office but that the State Office had made the
decision to allow Del Webb to use its own appraiser. However, a July 1, 1996, letter from
the Chairman of the Board and Chief Executive Offker of Del Webb makes reference to the
Deputy Director’s “intervention on numerous occasions in order to get Nevada BLM pureau
of Land Management] to comply with FLEFA [Federal Land Exchange Facilitation Act of
 19881 and the Justice Department’s Uniform Aunraisal Guidelines.” We noted that the
Federal Land Exchange Facilitation Act allows either party to the exchange to obtain the
appraisal of the selected Federal land by stating, “[T]he Secretary concerned and the other
party or parties involved in the exchange shall arrange for appraisal of the lands or interests
therein involved in the exchange.” In addition, the Code of Federal Regulations (43 CFR
2201.3-l) states that the appraiser may be an employee or contractor to the Federal or non-
Federal exchange parties. As such, the Nevada State Office’s practice of using a Bureau
contract appraiser to conduct the appraisal of the selected Federal land was also in compliance
with the Act and implementing regulations.


‘The Code of Federal Regulations (43 CFR 2201.3-l) states: “A qualified appraiser(s) shall provide to the
authorized 05cer appraiti~estimating the market value of the Federal and non-Federal properties involved in an
exchange. A qualified appraiser may be an employee or a contractor to the Federal or non-Federal exchange
parties.”

                                                      5
Use of Development Approach

The initial appraisal, which was prepared by Del Webb’s appraiser, valued the 4,776 acres
of Federal land at $43 million using the development approach. This approach reflects the
highest price a proponent of a land exchange could afford to pay for the lands and still earn
its desired profit. The “Uniform Appraisal Standards for Federal Land Acquisitions” states,
“[W]hen comparable sales are available to determine the property’s fair market value, the
developer’s residual approach [development approach] should not be employed, as the
approach is highly speculative, prone to error, and reflects not so much value [of the lands
being appraised] as the highest price a developer can afhord to pay for the lands and still earn
the desired profit. ” The Nevada State Chief Appraiser had informed Del Webb’s appraiser
of his concern regarding the use of this method on March 5, 1996. Subsequently, the Bureau
ordered a second appraisal of the selected Federal land. The second appraisal relied on
comparable sales and estimated the value of the selected Federal land at $52.1 million (an
increase of $9.1 million over the initial appraisal). The appraisal report validated the Nevada
State Chief Appraiser’s position that the comparable sales approach should be relied on for
estimating the value of the selected Federal land (see the section “Contract for Second
Appraisal” in this report).

State Chief Appraiser Relieved of Responsibilities

The Bureau’s        Deputy Director relieved the Nevada State Chief Appraiser of his
responsibilities for reviewing the appraisal of the Federal land selected by Del Webb, and the
Washington Office decided to contract with a non-Federal source for the appraisal review.
Section 1203 of the Bureau Manual, which was in effect at the time, limited the responsibility
for reviewing and approving exchange values to “the State Office Chief Appraiser only.”
According to a chronology of events on the Del Webb exchange prepared by the State Chief
Appraiser, the State Chief Appraiser was relieved of his responsibilities because a Del Webb
representative had stated to the Washington Office that the State Chief Appraiser had
expressed a “preconceived opinion of value” during a meeting with Del Webb’s appraiser and
other Bureau and Del Webb officials on March 5, 1996. However, based on our review of
the exchange files and interviews with Nevada State Office officials, we did not find any
evidence of a “preconceived opinion of value” by the State Chief Appraiser. We confirmed
with the Associate District Manager for the Las Vegas District, who was present at the
meeting with Del Webb, that the State Chief Appraiser did not express a “preconceived
opinion of value.” In addition, our review of the files in the Nevada State Office found no
information documenting or justifying the decision to relieve the State Chief Appraiser of
his responsibilities or information supporting Del Webb’s view that he had a “preconceived
opinion of value” regarding the selected Federal land. Instead, according to the State
Director and the Associate District Manager and the chronology prepared by the State Chief
Appraiser, the State Chief Appraiser wanted to comply with the “Standards” regarding the
valuation of property (comparable sales versus development approach).




                                               6
During the March 5, 1996, meeting, Del Webb’s appraiser informed the State Chief
Appraiser that he was relying on the development approach as the method to estimate the
value of the selected Federal land. The State Chief Appraiser stated that he informed the Del
Webb representatives that the appraisal would not be in conformance with the “Uniform
Standards for Federal Land Acquisitions” unless it relied substantially on comparable sales.
The State Chief Appraiser stated that he was subsequently notified by his supervisor that he
was relieved of his responsibilities regarding the Del Webb exchange.

Appraisal Review Contract

After the State Chief Appraiser was relieved of his review responsibilities on this exchange,
a Bureau contracting officer (from the Bureau’s National Business Center in Denver,
Colorado), relying on the recommendation of the Washington Office Chief Appraiser,
awarded a contract on May 10, 1996, with limited competition for an appraisal review to a
firm nominated by the Del Webb Corporation.‘j Before this contract was awarded, the
Nevada State Director stated that the Nevada State Office had recommended that another
state chief appraiser assume the responsibility for reviewing the appraisal. However, this
recommendation was not accepted by the Deputy Director.

According to the Washington Office Chief Appraiser, competition for the contract award was
limited “to avoid greater expense to the United States and weaken the integrity of the
appraisal report.” However, we did not find documentation such as estimated costs or other
rationale concerning the extent and nature of the adverse impact on the Government or the
appraisal if a fully competitive contract were to be awarded. In addition;- the justification for
the award noted that the contractor was selected because the firm was experienced “in
appraising master planned communities” and is “familiar with the Las Vegas real estate
market,” but it did not document why the other appraisal firms solicited were not selected.

The appraisal review contractor approved an appraisal that was not performed in accordance
with the “Uniform Appraisal Standards for Federal Land Acquisitions” (development
approach versus comparable sales). The Del Webb appraiser had valued the 4,776 acres of
Federal land at $43 million by relying on the development approach. The December 5, 1996,
appraisal review report, obtained by the Bureau under the contract, accepted the appraiser’s
value of the land without any adjustments. On December 9, 1996, the Bureau’s Washington
Oftice Chief Appraiser accepted the appraisal review report and the $43 million valuation
and recommended that this value be approved by the Bureau’s Las Vegas District Manager.




?he competition was limited because of an “unusual and compelling urgency. ’ The contract was executed using
the simplified acquisition procedures in the Federal Acquisition Regulation. The Washhgton Oklice Chief
Appraiser interviewed five appraisal fums, including the firm nominated by Del Webb, to determine their
qualifications for conducting the appraisal. The Washington Of&e Chief Appraiser ordharily works on
developing Bureau policy and guidance on appraisals.

                                                     7
Contract for Second Appraisal

On December 12, 1996, we notified the Bureau of our intent to perform a followup audit of
its Nevada land exchange activities. In a December 23, 1996, letter responding to a request
from Senator Harry Reid from Nevada about the status of the Del Webb exchange, the
Deputy Director stated:

       Another factor which may potentially affect the timing of the Del Webb
       exchange is the investigation of land exchange activities in Nevada by the
       Office of Inspector General (IG). . . . We will meet with the IG’s office during
       the week of January 6, 1997, to discuss this new audit.

On January 7, 1997, we held an entrance conference on our followup audit with Bureau
officials and informed them that the Del Webb exchange would be included as part of the
scope of our audit. On January 27, 1997, the Bureau contracted for a second appraisal on
the Federal land selected by the Del Webb Corporation. This contract, which also did not use
an appraisal firm preapproved by the Nevada State Office and which was reviewed by the
Washington OfIice Chief Appraiser instead of the Nevada State Chief Appraiser, used the
comparable sales method to value the selected Federal land.

According to the Bureau, a “large number of IDepartment] officials, including BLM [Bureau
of Land Management] Washington and Field Officials, Solicitor’s Office representatives, and
a representative of the Assistant Secretary’s Office . . . made a consensus decision to seek a
second appraisal. ” The Bureau stated that it made this decision for the following reasons:

       The concerns that led to this conclusion included: 1) the values recommended
       by the contract review may be too low; 2) the public had not had an
       opportunity to comment on the appraisal during the public comment period
       on the initial Notice of Decision; 3) the appraisal review contractors had
       identif!ed 10 comparable sales, some of which had not been identified by Del
       Webb’s appraiser; 4) BLM continued to have questions regarding the
       appraisal methodology (feasibility of the preferred approach based on
       cornparables); 5) several protests questioned the initial appraisal; and 6) there
       was an unresolved issue concerning a power line right-of-way that potentially
       affected appraised value.

The Bureau received the second appraisal, dated March 21, 1997, which valued 4,756 acres
of selected Federal land at $52.1 million. In addition, the appraisal report validated the
Nevada State Chief Appraiser’s position by stating, “[O]nly the Sales Comparison Approach
to value was directly applicable in this analysis.” The appraisal increased the value of the
Federal land selected by Del Webb from $43 million for 4,776 acres (an average of about
$9,000 per acre) to $52.1 million for 4,756 acres (an average of about $11,000 per acre), or
an increase of $9.1 million for 20 fewer acres. The initial exchange transaction (Phase IA),
which was subsequently finalized on July 29, 1997, provided 922 acres of selected Federal
land valued at $11,452,639 (an average of $12,423 per acre for this land) to Del Webb using
the higher appraisal value.

                                               8
Conclusion

As presented in our audit reports issued in 1991 and 1992 and, more recently, in July 1996,’
the Bureau of Land Management had not administered land exchanges in accordance with
established standards and procedural controls.

On June 20, 1996, three members of the U.S. House of Representatives (including the
Chairman of the House of Representatives Resources Committee and the Chairman of the
House of Representatives Subcommittee on National Parks, Forests and Lands) sent a letter
to the Secretary requesting that a moratorium be placed on all land exchanges in Nevada. In
his July 19, 1996, response to the request, the Bureau’s Deputy Director stated that the
Bureau had:

         . . .instituted several procedural and policy changes to set priorities on
         exchange proposals, to streamline the paperwork process, to improve
         coordination with local governments, to improve management of the land
         exchange process and to assure that the public receives a fair value for land
         exchanges.

The Deputy Director informed the Congress that a partial moratorium had been imposed but
that the Bureau was concentrating on six high priority exchange proposals (which included
the Del Webb exchange).

On July 30, 1996, the Subcommittee on National Parks, Forests and Lands, Committee on
Resources, House of Representatives, conducted hearings with the Inspector General
regarding the Office of Inspector General’s July 1996 audit report on Bureau land exchange
activities in Nevada. At this hearing, in response to a question from a member of the
Subcommittee as to whether a moratorium was necessary on all laud exchanges in Nevada,
the Inspector General stated:

         I do not believe that the results indicated in our [July 19961 audit report
         require a moratorium on land exchanges. We did not come to that
         conclusion. We believe that there are problems with the process that need to
         be addressed and that should be addressed as promptly as possible, but I
         would not go so far as to say we have concluded that there is a need for a
         moratorium on land exchanges.

During the hearing, another member of the Committee asked the Inspector General if it was
the Inspector General’s “expectation that no fiture land exchanges would occur without the



‘These reports consist of the June 199 1 audit report “Land Exchange Activities, Bureau of Land Management”
(No. 91-I-968); the May 1992 audit report “Land Acquisitions Conducted With the Assistance of Nonprofit
Organizations, Department of theInterior(No.92 -1-833); and the July 1996 auditreport“NevadaLaud Exchange
Activities, Bureau of Laud Management” (No. 96-I-1025).

                                                     9
implementation of those three recommendations        . . . [in the July 1996 audit report].” In
response, the Inspector General stated:

        Obviously it would be our hope that any future exchanges incorporate the
        recommendations that we have made. . . . There are certain things like
        ensuring that appraisal values are approved by a chief appraiser. That is
        something that doesn’t require any period of time to implement. . . . I think
        based on the Bureau’s response [to the July 1996 audit report], they [the
        Bureau] are talking about reviewing all of their processes to ensure that, in
        fact, they are in compliance with the applicable rules and regulations [for land
        exchanges]. But it is certainly my hope that the particular items that we have
        pointed out in the audit report, to the extent that they arise again in another
        exchange, that they would be able to do it the right way. . _

In reviewing the Del Webb exchange, we found that the Bureau’s Washington Office did not
fully conform to established standards, procedures, or controls. The Bureau had assured the
Congress, in response to several inquiries from its members about land exchanges, and our
office, in response to our prior audit report on Nevada land exchanges, that it would comply
with established land exchange procedures and controls. However, on December 9, 1996
(about 6 months after its response to the June 1996 House of Representatives letter and about
5 months after the Congressional hearing), the Washington Office Chief Appraiser accepted
and recommended approval of the initial appraisal and appraisal review when the appraisal
did not conform to the “Standards” preferred method of appraising Federal land and was not
reviewed and approved by the Nevada State Chief Appraiser. As stated previously, a second
appraisal was obtained that increased the value of the selected Federal land. The processing
of the Del Webb exchange without the second appraisal would have resulted in a $9.1 million
loss to the Government.

Because the Bureau has not conformed to established procedures and controls,
notwithstanding its assurances of such to the Congress and the Office of Inspector General,
we believe that the Bureau should establish a moratorium on land exchanges in Nevada until
new control processes are instituted, including having an external team review and provide
advice on land exchanges. We will formally recommend that such processes and an external
team be established in our followup report,

Bureau of Land Management Response and Office of Inspector General
Reply
In the February 25, 1998, response (Appendix l), the Director, Bureau of Land Management,
included, as Attachment 1, a chronology of Del Webb land exchange events. The excerpted
narrative from this chronology and our comments and clarifications of the events are
presented in Appendix 2. The Bureau’s comments on the report and exchange actions are
discussed in the following paragraphs.

In his response, the Director discussed the benefits of the land exchange program for
acquiring land containing resource values of public significance and improving the

                                              10
manageability of Federal land ownership. The Director stated that the Del Webb exchange
was “one of the largest and most challenging exchanges ever undertaken” by the Bureau and
that this exchange was given “unprecedented attention” in both the Nevada State Office and
the Bureau’s Washington Headquarters Office because of the “very speculative and volatile
nature of the land values in the Las Vegas area, and the size of this exchange. ” The Director
further stated that our draft advisory report “expresses concern about different/several
decisions made early” in the exchange. Specifically, according to the Director, our report
“does not question the consistency of these decisions with controlling law or regulations”
but the “departure, . . . from established standards or procedures.” The Director also stated
that our report “only suggests that, had BLM [Bureau of Land Management] not undertaken
a second appraisal, there could have been a $9.1 million loss to the Federal government.” The
Director further stated that “[mlore relevant to the ultimate question of whether the public
interest was served in this matter, I believe there is no doubt that BLM [Bureau of Land
Management] acted with appropriate caution before making any final decisions on this
exchange” and that the decision. to obtain the second appraisal “effectively eliminated
concerns about the appropriateness of the Ikal decision” The Director further stated that the
Bureau “takes particular issue with” the draft report’s “implied criticism that there is
something inappropriate about elevating decisions on high priority, high visibility and/or
sensitive issues from a field organization to Headquarters.”

The Director agreed that the “exchange program [should] be maintained on a solid footing”
and that procedures for a secondary review and concurrence by either the State Director or
the Washington Headquarters Office of exchanges exceeding $500,000 in value had been
established. The Director also stated that he was “considering establishing a Bureauwide land
exchange team to assist in the review of high priority exchanges, provide additional technical
support to BLM [Bureau of Land Management] field offices, and address policy and
procedural issues. ” Finally, the Director disagreed with the draft report’s suggestion that the
Bureau should establish a moratorium on land exchanges until new controls are instituted,
stating that the moratorium would have an “adverse impact” on the Bureau’s relationship
with various local governments.

         Oflice of Inspector General Reply In our July 1996 audit report of land exchanges
(discussed in the Prior Review section of this report), we noted that the Bureau had
“acquired some high quality properties by exchanging lands with private entities. ” However,
we also identified deficiencies in the Bureau’s administration of land exchanges, most notably
in the valuation of lands through appraisals, which limited the program’s benefits and resulted
in the Bureau not obtaining fair value in its Nevada land exchanges. This advisory report
discusses our newest concerns regarding the Del Webb land exchange.

Our criticism was not with the elevation of decisions to the Headquarters level but with the
Washington Office’s nonconformance with established standards and controls. Our particular
concerns with this exchange were that (1) the Bureau did not comply with appraisal standards
and established policies and procedures; (2) the proponent was significantly involved in the
decision-making process; (3) the Nevada State Chief Appraiser was removed from his
appraisal review responsibilities; and (4) the Washington Office Chief Appraiser decided to
accept the first appraisal and appraisal review, concluded that the $43 million value was
reasonable and adequately supported, and recommended (December 9, 1996) to the Las
Vegas District Manager that the appraisal be approved. We are encouraged by the Director’s
reference to the additional procedures that were implemented or are under consideration to
provide better control over the land exchange process. However, except for the decision of
the Bureau’s Washington Office to obtain a second independent appraisal, we do not agree
that the Bureau’s decisions on the Del Webb exchange were reasonable or appropriate or
ensured that the public interest was served.

We do not believe that the Bureau’s Washington Office was justified in its acceptance of the
purported urgency of the appraisal or in its actions to facilitate completion and review of an
appraisal of the entire Federal parcel. We found that Del Webb did not have sufficient offered
property available to exchange for all the selected public land. For example, even after the
Bureau approved an appraised value for the selected public land on April 8, 1997, almost
 15 months after the date of Del Webb’s letter to the Nevada State Director, the Bureau was
able to accept only four properties valued at about $11 million in the initial exchange
transaction.

Additional Comments on Advisory Report

In its response, the Bureau provided additional comments on our report. The comments and
our replies to the comments are as follows:

         Bureau Response, The Bureau stated: “The decision to allow Del Webb to furnish              .
the initial appraisal for the proposed exchange was in compliance with the Federal Land
Exchange Facilitation Act of 1988 (P.L. 100-409) and implementing regulations (43 CFR
2200). Section 2201.3-2 states ‘A qualified appraiser may be an employee or a contractor
to the Federal or non-Federal exchange parties.’ To the extent that a decision to allow Del
Webb to furnish the initial appraisal conflicted with a field policy or practice, the decision was
fully within the discretion of BLM [Bureau of Land Management] Headquarters’ Officials.”

         Oflice of Inspector General Reply. Our prehminary draft report did not state that
the Bureau had not complied with authorizing land exchange legislation or its implementing
regulations. However, we reported that the Bureau did not comply with established policies,
standards, and controls for appraisals and land valuations. Our report also noted that the
decisions of Headquarters officials to override the Nevada State Office’s standard policy and
practice of obtaining the appraisal of selected public land was not justified or documented to
show the propriety of this action. Furthermore, the Bureau’s response contkts with the
information provided to us during interviews with Headquarters officials concerning the
Washington Office’s involvement in the decision-making process for the Del Webb exchange.
Specifically, the Deputy Director and the Washington Office Chief Appraiser both told us
that they offered only advice to Nevada State officials who made the decision to allow Del
Webb to furnish the appraisal and that the Washington Office did not make this decision.

        Bureau Response. The Bureau stated: “The use of the ‘cost development approach
is acceptable under the Department of Justice’s ‘Uniform Appraisal Standards for Federal
Land Acquisitions’, when the Appraiser, in his or her professional judgment, concludes there

                                               12
are inadequate or no comparable sales. It is appropriate for reviewing appraisers to withhold
judgment on an appraiser’s reasoning and appropriate use of appraisal methods until the
appraisal is reviewed. The Contracting Appraiser . . . appraisal supplied by Del Webb met
Federal Standards although it was not accepted by BLM [Bureau of Land Management]. It
should be noted that there was some market analysis included in the first appraisal. Lack of
confidence in this market, however, was one of the primary reasons for deciding to do a
 second appraisal. ”

         Ofice of Inspector General Reply. The “Uniform Appraisal Standards for Federal
Land Acquisitions” states that the cost development approach is “highly speculative, prone
to error, and reflects not so much value as the highest price a developer can afford to pay for
the land and still earn the desired profit. ” The “Standards” also states that the use of this
approach should be reserved for providing a check on the accuracy of value determined by
the more reliable comparable sales method or in situations where “no comparable sales” are
available.

We believe that the Nevada State Chief Appraiser correctly advised (March 5, 1996) Del
Webb’s appraiser of the “Standards” preference for the comparable sales approach and that
adequate information was available to use this approach. Further, we noted that the
Solicitor’s Office suggested that the comparable sales approach be used by the appraisers
who were preparing the second appraisal for the Bureau.

        Bureau Response. The Bureau stated: “The decision to remove the BLM [Bureau
of Land Management] Nevada Chief Appraiser . . . from the reviewing appraiser f?mction
was based on the perception that [the Nevada State Chief Appraiser] had a dispute with [Del
Webb’s appraiser] before the initial appraisal was performed in which he [the Nevada State
Chief Appraiser] strongly expressed inappropriate preconceived notions of value or
methodology. This disagreement between [the Nevada State Chief Appraiser and Del Webb’s
appraiser] could have potentially jeopardized the processing of the exchange, . . . Obtaining
BLM in-house appraisal review expertise would have added additional delay in the land
exchange processing.”

        Oflice of Inspector General Reply We noted that the second appraisal supported
the Nevada State Chief Appraiser’s position that only the comparable sales approach was
appropriate for valuing the public land sought by Del Webb. In addition, the Solicitor’s
Office advised the Washington Office Chief Appraiser to advise the second appraisers of the
requirement in the “Standards” that the comparable sales approach was the preferred method
to be used when appraising Federal lands. As stated in the report (pages 6 and 7), we found
no evidence to support the position that the State Chief Appraiser expressed a preconcieved
notion of value. To the contrary, we noted that the State Chief Appraiser was attempting to
comply with the “Standards” preferred method of valuation.

The Bureau stated that obtaining an in-house appraisal review would have additionally
delayed the exchange processing. However, we noted that there were extensive delays in
processing this exchange that were caused in part by the concerns raised by Nevada State
Office officials about the Del Webb appraisal and its contract review.

                                              13
         Bureau Response. The Bureau stated: “As the chronology shows, discussions within
BLM bureau of Land Management] about securing a second appraisal began before the IG
[Inspector General] announced a follow-up audit and well before the IG informed BLM that
the following audit would include the Del Webb exchange. Ultimately, a large number of
DO1 [Department of the Interior] officials, including BLM Washington and Field Officials,
Solicitor’s Office representatives, and a representative of the Assistant Secretary’s Office
were involved in these discussions and made a consensus decision to seek a second appraisal.
The concerns that led to this conclusion included: 1) the values recommended by the contract
review may be too low; 2) the public had not had an opportunity to comment on the appraisal
during the public comment period on the initial Notice of Decision; 3) the appraisal review
contractors had identified 10 comparable sales, some of which had not been identified by Del
Webb’s appraiser; 4) BLM continued to have questions regarding the appraisal methodology
(feasibility of the preferred approach based on cornparables); 5) several protests questioned
the initial appraisal; and 6) there was an unresolved issue concerning a power line right-of-
way that potentially affected appraised value. (See December 9, 1996 and September 10,
 1996 chronology.)”

         Office of Inspector General Reply. We have incorporated the Bureau’s reasons for
acquiring the second appraisal into the report. However, notes prepared by the Washington
Office Chief Appraiser of a December 18, 1996, meeting attended by the Deputy Director,
the Washington Office Chief Appraiser, the Nevada State Director, the Las Vegas District
Manager, and a representative of the Assistant Secretary for Land and Minerals Management
stated that decisions on whether to use the first appraisal and on how to proceed would not
be made until the Bureau could determine whether our audit would include the Del Webb
exchange (see December 18, 1996, in Appendix 2 chronology).

        Bureau Response. The Bureau stated: “The decision to seek a second appraisal and
the subsequent decision to accept that appraisal led to BLM [the Bureau of Land
Management] receiving greater value for its lands. These decisions support a conclusion that
the safeguards to protect and serve the public interest in the exchange process worked in the
case of the Del Webb exchange; they do not support the inferences in the IG [Inspector
General] report that improper processes and procedures were followed.”

        Office of Inspector General Reply. We disagree that proper processes and
procedures were followed and that safeguards to protect the public interest worked in the Del
Webb exchange. The procedural safeguards established by the Nevada State Office, which
were designed to ensure that a fair value was established and that the appraisal was conducted
in accordance with Federal appraisal standards, were overridden by the Washington Office
in February and March 1996. We firmly believe that the exchange would have been
consummated using the initial appraisal had the Bureau not been subjected to external factors
that exerted pressure on it to obtain a second appraisal.

Since this report does not contain any recommendations,    a response is not required.

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau personnel in the conduct of our review.



                                             14
                                                                                   APPENJXX 1
                                                                                    Page 1 of 12
                       United States Department                  of the Interior
                                     BUREAU OF LAND MANAGEMENT
                                           Washington. D.C. 20240
                                                                                 In Reply Refer To:
                                                                                 124512200 (350)
                                            FEB 241990
      Memorandum




      From:          Director, Bureau of Land Management     /?d,&

      Subject:       Review of Preliminary Draft Advisory Report - Del Webb Land Exchange
                     Assignment No. (W-IN-BLM-OOl-97A) (The Draft Advisory Report)

      I appreciate the opportunity to review and comment on the Office of the Inspector General’s
      Preliminary Draft Advisory Report on the Del Webb land exchange, which was delivered to our
      office on February 5,1998.

      As is stated in the dr& report, Congress has emphasized the use of land exchanges and fee
      purchases to acquire land containing resource values of public signifkance and to improve the
      manageability of federal land by consolidating its land ownership. I support this program as an
      effective tool for managing the lands BLM administers. By working with the BLM State
      Directors, we have made significant progress in land adjustments between private and state
      ownerships where all entities benefit through more effective land management. We have gained
      thousands of acres of quality habitat areas for multiple use management, especially for the
      enhancement of plant and animal diversity.

      The Del Webb land exchange covered by the Prelimimuy Draft Advisory Report is one of the
      largest and most challenging exchanges ever undertaken by the BLM. Because of the very
      speculative and volatile nature of the land values in the Las Vegas area, and the size bf this
      exchange, BLM gave this exchange unprecedented attention in both the Nevada State Office and
      the Washington Headquarters Office.

      The Preliminary Draft Advisory Report expresses concern about different/several decisions made
      early in the Del Webb exchange process. The Draft Advisory Report does not question the
      consistency of these decisions with controlling law or regulations, but rather questions the
      departure, in some instances without 111 explanation in the record, from established standards or
a,.   procedures. In addition, the Draft Advisory Report does not question BLM’s ultimate decision
      to proceed with the exchange, but only suggests that, had BLM not undertaken a second
      appraisal, there could have been a $9.1 million loss to the Federal government.




                                                  15
                                                                                APPENDIX 1
 ¶                                                                               Page 2 of 12
 I
                                                                                    2

I have attached a chronology of significant events on the Del Webb exchange. A second
attachment is an explanation of the reasons for particular Del Webb decisions that represents the
consensus of the major BLM participants in those decisions.

I would appreciate your examining this information thoroughly as you prepare the final report, so
as to ensure a full and accurate description of events. Hindsight is always 20/20, but my review
of the record here convinces me that what the Preliminary Draft Advisory Report reflects is
basically a good faith disagreement by reasonable people over the wisdom of some decisions
made in the early stage of this exchange proposal; not, however, the result.

More relevant to the ultimate question of whether the public interest was served in this matter, I
believe there is no doubt that BLM acted with appropriate caution before making any final            .
decisions on this exchange. Specifically, the decision to obtain a second appraisal and to provide
additional procedural steps before completing its decisionmaking effectively eliminated concerns
about the appropriateness of the fina decision.

The BLM takes particular issue with the PreliminaryDraft Advisory Report in its implied
criticism that there is something inappropriate about elevating decisions on high priority, high
visibility and/or sensitive issues from a field organization to Headquarters. Such actions are not
unusual and of themselves cannot imply any impropriety.

As the new BLM Director, I share your concern that our exchange program be maintained on a
solid footing. I have undertaken measures to continue our quest for excellence in this program.
On December 29,1997, I established procedures for a second level review by either the State
Director or the Washington Headquarters Office, and concurrence in decisions involving
exchanges in excess of $500,000 in value. In addition, I am considering establishing a Bureau-
wide land exchange team to assist in the review of high priority exchanges, provide additional
technical support to BLM field offices, and address policy and procedural issues.

Although the Preliminary Draft Advisory Report ends with the observation that it does not
contain any recommendation, the preceding pamgraph recommends that the Bureau establish a
moratorium on land exchanges until new control processes are instituted. I do not believe such a
moratorium is wise because of its significant adverse impact on the ongoing relationships with
the various local, county and state governments with which BLM works to effectuate appropriate
land management and land exchange decisions. I am moving with dispatch to provide additional
oversight on our exchange program.

I appreciate the opportunity to comment.




Attachments




                                              16
                                                                           APPENDIX 1
                                                                            Page3 of 12

                                    CHRONOLOGY
                                Del Webb Land Exchange



September 29,1994   Initial exchange proposal made by Del Webb.

November 27,1995    The Nevada BLM State Director (Ann Morgan) forwards by letter a &ail
                    “Agreement to Initiate Exchange” to Del Webb, that provides that the
                    Bureau will appraise the private and Federal lands involved in the   .
                    proposed exchange.

January 16,1996     Del Webb responded by letter to the Nevada State Director (Ann Morgan)
                    regarding the provisions of the draft exchange agreement between BLM
                    and Del Webb. The letter stated: “the proposed appraisal language in your
                    draft is far more restrictive than the plain language of the Federal
                    Regulations’ [43 CFR, Part 2201.3 and 3-l] and we believe the process will
                    be aided immeasurably by adhering to federal regulations rather than by
                    restricting those regulations with a localized policy not specifically
                    designed to produce the best available appraiser.” The letter was
                    expressing concern that the BLM would not promptly start the appraisal
                    process and that Gregg Harris was better qualified than any appraiser on
                    BLM Nevada’s list of qualified appraisers. Del Webb anticipated having
                    an appraisal completed by early March 1996; BLM’s timing would have
                    been later.

February 2,1996     Upon the advice of the Washington Office, Nevada State Director (Ann
                    Morgan) signs revised ‘Agreement to Initiate Land Exchange’ for Del
                    Webb land exchange. Agreement provides for Del Webb to assist in the
                    exchange by preparing several of the required documents and studies,
                    including appraisal reports. Basically, BLM agreed with Del Webb that
                    the regulations provide for the exchange proponent to appraise the lands,
                    subject to BLM review. BLM felt that the contracting appraiser selected
                    by Del Webb could do as good a job as a BLM appraiser.

March 5,1996        Associate District Manager and Project Lead (Gary Ryan), and BLM
                    Nevada Chief Appraiser (Jerry Stoebig) and Shawn Redfleld, BLM
                    Arizona Chief Appraiser, meet in Phoenix, Arizona with the Contract
                    Appraiser (Gregg Harris) and Don Moon and Virginia Turner representing
                    Del Webb. The purpose of the meeting is to discuss instructions for
                    completion of the appraisal report. Jerry Stoebig expresses concern with
                    Gregg Harris and the Del Webb representatives over use of the ‘Cost
                    Development Approach”, a valuation method proposed to be used by
                    Gregg Harris.

                                                                         Attachment I



                                        17
                                                                         APPENDIX 1
                                                                          Page 4 of 12




March I4,1996   Contract Appraiser (Gregg Hatris) completes appraisal, based upon a
                “Cost Development Approach”, for Del Webb for 5,3 12.5 acres of selected
                lands in the proposed exchange.

March 25,1996   (Approximate date) A conference call was held involving Deputy Director
                (Mat Millenbach), Washington Office Chief Appraiser (David
                Cavanaugh), Deputy State Director-Resources (Saundra Allen) and
                Associate State Director (Jean Rivers-Council). The purpose of the tail
                was to discuss options for reviewing the appraisal. During the course of
                the conversation, Jean Rivers-Council informed Mat Millenbach and
                David Cavauaugh that Nevada had decided to remove (BLM Nevada State              .
                Chief Appraiser) Jerry Stoebig f?om the appraisal review responsibilities
                because of his possible lack of objectivity to the appraisal process and
                perceived poor working relationships with Del Webb. Mat Millenbach
                and David Cavanaugh concurred with this decision. (Note: Mr. Stoebig
                was not removed from his job--just the Del Webb exchange process.) It
                was concluded that it would be very difficult to find another BLM
                appraiser with the expertise and time to conduct this review. BLM had
                recently lost appraisal staff in several states, existing workioad in other
                states was perceived as heavy, and BLM did not have the Ievel of expertise
                for the appraisal of these types of property. Addition&y, appraisers from
                other state offices are generalIy uncomfortable in assisting another state to
                provide an impartiaI review of appraisais for another Chief Appraiser.
                Obtaining BLM in-house appraisal review expertise would have added
                additional delay in the land exchange processing. As a solution to this
                problem, David Cavanaugh pointed our that the regulations authorized the
                use of a contract review appraiser. Mat Millenbach approved the use of
                this approach since the Washington Office was unable to provide another
                appraiser from within the Bureau                                    ‘- ---.---

March 27,1996   Washington Office Chief Appraiser (David Cavanaugh) conducted
                telephone interviews with six prospective review appraisers. The IG’s
                preliminary draft says five prospective contractors were contacted
                (footnote, page 14).

April 25,1996   On April 25,1996, the former Associate District Manager for the Las
                Vegas District (Gary Ryan) and the Washington Office Chief Appraiser




                                     18
                                                                                APPENDIX 1
                                                                                 Page5 of 12




                        (David Cavanaugh) met with the prospective contract reviewers (Cushman
                        & Wakefield) in Phoenix, Arizona. Based on the interview and discussion
                        of the statement of work, a contract was awarded to C@man &
                        Wakefield following appropriate procurement procedures through the
                        BLM National Business Center (Denver) on May 10,19%.

May lo,1996             Award contract to C&man & Wakefield (Steve Leach and Mike Miller)
                        to review the Contract Appraiser’s (Gregg Harris) appraisal report. The
                        Contracting Officer complied with all requirements for simplified
                        acquisitions in Federal Acquisition Regulations (FAR) Part 13.106-
                        2(d)(3), which only required a notation to explain the absence of
                    .   competition. The award in the amount of $12,500 was for less than the
                        simplified acquisition threshold regarding competition.    The Prehminary
                        Draft IG Report (p.14) says FAR was not complied with. BLM also
                        prepared a Justification for Other than Full and Open Competition
                        (JOFOC), in accordance with portions of the Part 6.303-2 regulations.
                        The JOFOC authorized the Contracting Officer to proceed with a “Sole
                        Source” acquisition.

July 16, 1996           Memorandum from Washington Office Chief Appraiser (David
                        Cavanaugh) to Las Vegas District Manager (Mike Dwyer), providing a
                        copy of the initial appraisal review report prepared by Cushman &
                        Wakefleld. David Cavanaugh advises Mike Dwyer that some additional
                        sales transactions are being reviewed which may provide some
                        comparable sales information, and that the appraisal review report may
                        need to be up&ted and may have an impact upon the appraised value.

September lo,1996       Letter from Acting Deputy Director (Gwen Mason) to Del Webb, advising
                        Del Webb that appraisals may need to be revised if additional comparable
                        sales information becomes available prior to final actions on the land
                        exchange, to ensure that appraisals refIect current market value.

October 14,1996         Contract Appraiser (Gregg Harris) completes update of earlier appraisal,
                        including some comparison with comparable sales. Property appraised
                        includes 4,776 acres and a separate value for Phase 1 only. Appraiser
                        concludes $43,000,000 for entire property, and $20,285,000 for Phase I
                        only.

November 4,1996         Decision Record and Notice of Decision issued on the proposed land
                        exchange, which provides for a 45 day public comment and protest period.




                                             19
                                                                             APPENDIX 1
 3
 .                                                                            Page 6 of 12


November 2 1,1996   E-Mail message from Washington Office Chief Appraiser (David
  .                 Cavanaugh) to Washington Office Manager (Ray Brady) summarizing
                    telephone conversations with Las Vegas District Manager (Mike Dwyer)
                    and later with Don Moon and Virginia Turner. The District Manager
                    expressed concern the values were too low and the report fails to use
                    adequate comparable sales information. Cavanaugh expressed concern
                    with earlier drafts prepared by the reviewers.

November 27,1996    Protest letter from Sierra Club raises concern regarding the appraisal of
                    lands and indicates the lands may be under valued. Requests an
                    opportunity to review the appraisals.

December 5, 1996    Steve Leach and Mike Miller (Cushman & Wakefield) submit appraisal
                    review report. Their review includes reference to 10 potential comparable
                    sales. The reviewers concluded, however, that the additional market
                    analysissupported the Contracting Appraiser’s (Gregg Harris’s) opinion of
                    Vdllt!.



December 9,1996     Washington Office Chief Appraiser (David Cavanaugh), contracting
                    officer representative (COR), accepts the appraisal review report for
                    purposes of authorizing payment under the contract only. Tbe appraisal
                    review prepared by Steve Leach and Mike Miller (Cushman & Wakefield)
                    was forwarded to the authorized officer (Mike Dwyer) for approval. It was
                    never approved by either the authorized officer or the State Director (Ann
                    Morgan).

                    Washington Office Chief Appraiser (David Cavanaugh), in his evaluation
                    of the appraisal review report forwarded to Las Vegas District Manager
                    (Mike Dwyer), raised four issues: 1) A perception that the appraised
                    values are too low; 2) agreement by the reviewers that the value per acre
                    for Phase 1 is lower than for the entire tract 3) the review report assumes
                    the sale of the entire property and does not consider any lapse-in time
                    between the first and final transactions; 4) the review report assumes the
                    land is free and clear of all encumbrances including mining claims and that
                    any costs to clear assumed by a prospective buyer would be a reduction in
                    value. Also included in David Cavanaugh’s evaluation is a discussion of
                    an option to prepare an additional appraisal or appraisal reviews.

December IO,1996    Protest letter from Charles Hancock (private citizen) requesting an
                    opportunity to review the appraisal reports and asserts that a competitive
                    sale of the lands would increase values.

December 12.1996    OIG notifies the Bureau of intent to perform a follow up audit of its
                    Nevada land exchanges. This notification gave no indication that the




                                        20
                                                                          APPENDIX 1
                                                                           Page 7 of 12

                   ongoing Del Webb land exchange would be included in the follow up
                   audit. The notification indicated only that “recently completed exchanges”
                   would be reviewed. The Del Webb exchange was not completed at this
                   time.

December 16,1996   Letter iiom Senator McCain (AZ) to Assistant Secretary, Land and
                   Minerals Management requesting information on the status of the Del
                   Webb land exchange.

December 17,1996   Cushman and Wakefield provide a presentation in the BLM Washington
                   Office on the appraisal review. Attendees were Department, BLM
                   Headquarters, and field managers and staff, including Las Vegas District
                   Manager (Mike Dwyer) and Nevada State Director (Ann Morgan).

December 18,1996   Following the December 17 meeting, Las Vegas District Manager (Mike           .
                   Dwyer) prepares handwritten comments critiquing the Harris appmisal
                   report and review’prepared by C&man and Wakefield. Copies of these
                   comments were given to Dave Cavanaugh and the contract review
                   appraisers. The major issues raised by Mike Dwyer regarded the cost
                   approach for the appraisal, unsupported adjustments to price, and poor
                   justification for the discount rate applied to the appraisal.

December l&l996    Letter fkom Senator Reid (NV) to Assistant Secretary, Land and Minerals
                   Management requesting information on the status of the Del Webb land
                   exchange.

December 19,1996   Protest letter from Howard Hughes Corporation expressed concern that the
                   appraisal documents were unavailable for review, and that values of the
                   exchange lands are unknown.

December 19,1996   Public comment period on the Notice of Decision ends. Seven protests are
                   received on the land exchange. Three of these protests raise issues related
                   to the appraisal of the lands involved in the exchange. (See the
                   November 27,1996, December 10,1996, and December 19,1996 entries
                   above.)

December 23,1996   Washington Office Chief Appraiser (David Cavanaugh) sends an
                   electronic message to Nevada State Director (Ann Morgan), Las Vegas
                   District Manager (Mike Dwyer) and others as a follow up to Mike Dwyer’s
                   comments on the appraisal review. Mike Dwyer’s comments were also
                   forwarded to Cushman & Wakefield with a request for the contract review
                   appraisers to respond to the comments. David Cavanaugh concludes in
                   the electronic message that: “Therefore, I still think we need an appraisal
                   that relies primarily on a market analysis, which to the extent may be
                   appropriate, includes a reference to the appraisal and appraisal review.”



                                       21
                                                                                 APPENDIX 1
                                                                                  Page 8 of 12




..


December 23,1996        In response to the December 16.1996, letter from Senator McCain (AZ)
                        and December 18,1996, letter from Senator Reid (NV), Deputy Director
                        (Mat Millenbach) writes to Senator McCain and Senator Reid regarding
                        BLM’s progress in processing the Del Webb land exchange. The letter
                        states that “we intend to follow all applicable statutes, regulations, and
                        procedures in processing this exchange and to continue to involve the
                        public, as appropriate, to ensure that any final exchange transaction serves
                        the public interest.” He also states: “Another factor which may
                        potentially affect the timing of the Del Webb exchange is the investigation
                        of land exchange activities in Nevada by the Office of Inspector General
                        (IG).” The thought here is that if the IG discovered a serious deficiency,
                        BLM would have taken the time to address and correct the problem.

January 2,1997          Phil Dion (Chairman of the Board and CEO, Del Webb Corporation)
                        writes Senator McCain criticizing BLM’s handling of the land exchange.
                        The letter references an upcoming meeting on January 7.

January 6,1997          Cushman & Wakefield respond to Las Vegas District Manager’s (Mike
                        Dwyer) comments regarding the appraisal review report, including the
                        concerns regarding the development cost approach for the appraisal. The
                        review appraisers state: “This approach has current market acceptance, is
                        very reliable given the depth of data available and provides subject
                        specific value indicators which cannot be derived from the salts data,”

Jan. 7 and 8,1997       Las Vegas District Manager (Mike Dwyer) and Nevada State Director
                        (Ann Morgan) provide a briefing paper for discussions in meetings with
                        BLM Washington Office, Solicitor’s Of&e and the Assistant Secretary’s
                        Office of several issues concerning the appraisal report, the pmcedural
                        error of not providing the public an opportunity to comment on the
                        appraisal during the public comment period of the Notice of Decision,
                    .   ledger imbalance, OIG audit., resolution of protests, and Nevada Power
                        appeal. In a description of options, Mike Dwyer indicates BLM Chief
                        Appraiser (David Cavanaugh) recommends ordering new appraisal.
                        Justification is the appraiser would be independent from frost effort, fresh
                        set of eyes, and an opportunity to clarify instructions.

January 7,1997          OIG holds entrance conference on the followup audit with BLM officials
                        and informs BLM that the Del Webb land exchange will be included
                        within the scope of audit.




                                              22
                                                                            APPENDIX 1
 ?
 .                                                                           Page9of12


January 14.1997       Letter from Deputy Director (Mat Millenbach) to Phil Dion summarizing
.-                    decisions made at a January 7-8 meeting of BLM and DO1 officials.
                      Offkials discussed protests in response to the Notice of Decision (NOD)
                      published on November 4,1996. It was agreed a second appraisal would
                      be ordered, a supplemental environmental assessment would be prepared,
                      a new NOD would be issued, and property would be exchanged subject to
                      Nevada Power right-of-way.

January 2 l-22,1997   Meetings with Del Webb in Washington, DC to address ‘Implementation of
                      the January 14 letter.

January 27,1997       BLM contracts for a second appraisal. The existing BLM Nevada                .
                      contract list had only one appraiser from the Las Vegas area and we were
                      concerned regarding the quality of his previous work and reports. Because
                      the BLM Nevada Chief Appraiser had previously been removed from the
                      appraisal work for this exchange (March. 25,. 1996 decision), there was no
                      consideration to bring him into the process again. The BLM decided to
                      procure appraisal services from a reputable local firm not on the current
                      contracting list. It was also decided by the State Director and Deputy
                      Director that the Washington Office Chief Appraiser (David Cavanaugh)
                      would review the appraisal report. The BLM contracted with a top
                      Las Vegas accounting firm (Piercy, Bowler, Taylor & Kern) that had an
                      excellent appraisal staff.

January 30,1997       Deputy Director (Mat Millenbach) sends a follow-up letter to Phil Dion
                      summarizing meetings with his staff on January 2 l-22,1 997. The
                      meetings put in place procedural steps implementing decisions made at the
                      January 7-8,1997 meeting. A timetable prepared by Las Vegas Diict
                      Manager (Mike Dwyer) is attached to the letter.

February 25,1997      Meeting with Del Webb in Washington, DC to discuss progress with the
                      exchange.

March 21,1997         BLM receives the second appraisal. The appraiser’s conclusions were
                      based on a comparable sale analysis and also evaluated and considered the
                      Cost Development Approach from the earlier appraisal.

March 31,1997         Washington Office Chief Appraiser (David Cavanaugh) accepts the
                      appraisal report prepared by the contract appraiser.

April 8,1997          Approval of appraised value by Authorized Officer (Mike Dwyer) and
                      Nevada State Director (Ann Morgan), BLM letter to Del Webb providing
                      copy of approved appraisal and offer of $3 1.5 million for Phase I of the
                      Del Webb exchange.




                                         23
                                                                          APPENDIX 1
                                                                          Page 10 of 12




 ..

May 6,1997     Del Webb acceptance of offer.

May 21, 1997   New Notice of Decision issued for Phase I of the Del Webb exchange.
               Notice of Decision provides for public review of the approved appraisal.

July 29,1997   Title transfers and patents issued on the initial land transfers of Phase I-A
               of the Del Webb land exchange.




                                      24
                                                                                APPENDIX 1
                                                                                Page 11 of 12


                        BLM Comments on Del Webb Exchange Actions




1.       The decision to allow Del Webb to furnish the initial appraisal for the proposed exchange
         was in compliance with the Federal Land Exchange Facilitation Act of 1988 (P.L. IOO-
         409) and implementing regulations (43 CFR 2200). Section 2201.3-2 states ‘A qualified
         appraiser may be an employee or a contractor to the Federal or non-Feded exchange
         parties.” To the extent that a decision to allow Del Webb to furnish the initial appraisal
         conflicted with a field policy or practice, the decision was fully within the discretion of
         BLM Headquarters’ Officials.

2.       The use of the “cost development approach’ is acceptable under the Department of
         Justice’s ‘Uniform Appraisal Standards for Federal Land Acquisitions”, when the
         Appraiser, in his or her pmfessional judgment, concludes there are inadequate or no
         comparable sales. It is appropriate for reviewing appraisers to withbold judgment on an
         appraiser’s reasoning and appropriate use of appraisal methods until the appraisal is
         reviewed. The Contracting Appraiser (Gregg Harris) appraisal supplied by Del Webb
         met Federal Standards although it was not accepted by BLM. It should be noted that
         there was some market analysis included in the first appraisal. Lack of confidence in this
         market, however, was one of the primary reasons for deciding to do a second appraisal.

3.       The decision to remove the BLM Nevada Chief Appraiser (Mr. Stoebig) from the
         reviewing appraiser function was based on the perception that Mr. Stoebig had a dispute
         with Mr. Harris before the initial appraisal was performed in which he (Mr. S&big)
         strongly expressed inappropriate preconceived notions of value or methodology. This
         disagreement between Mr. Stoebig and Mr. Harris could have potentially jeopardized the
         processing of the exchange. (Mr. Dwyer was not involved with this decision.) Obtaining
         BLM in-house appraisal review expertise would have added additional delay in the land
         exchange processing.

4.       As the chronology shows, discussions within BLM about securing a second appraisal
         began before the IG announced a follow-up audit and well before the IG informed BLM
         that the folIowing audit would include the Del Webb exchange. ultimately, a large
         number of DO1 officials, including BLM Washington and Field OfIicials, Solicitor’s
     .   Office representatives, and a representative of the Assistant Secretary’s Office were
         involved in these discussions and made a consensus decision to seek a second appraisal.
         The concerns that led to this conclusion included: 1) the values recommended by the
         contract review may be too low; 2) the public had not bad an’opportunity to comment on
         the appraisal during the public comment period on the initial Notice of Decision;


                                                                              Attachment 2




                                             25
                                                                               APPENDIX 1
     r
                                                                               Page 12 of 12



                                                                                   2

         3) the appraisal review contractors had identified 10 comparable sales, some of which had
         not been identified by Del Webb’s appraiser, 4) BLM continued to have questions
         regarding the appraisal methodology (feasibility of the preferred approach based on
         cornparables); 5) several protests questioned the initial appraisal; and 6) there was an
         unresolved issue concerning a powerline right-of-way that potentially affected appraised
         value. (See December 9, 19% and September 10, 1996 chronology .)

5.       The decision to seek a second appraisal and the subsequent decision to accept that
         appraisal led to BLM receiving greater value for its lands. These decisions support a
         conclusion that the safeguards to protect and serve the public interest in the exchange
         process worked in the case of the Del Webb exchange; they do not support the inferences
         in the IG report that improper processes and procedures were followed.




                                             26
                                                                                                            APPENDIX 2
                                                                                                             Page 1 of 15

                              BUREAU OF LAND MANAGEMENT
                                     CHRONOLOGY OF
                            DEL WEBB LAND EXCHANGE EVENTS
                       AND OFFICE OF INSPECTOR GENERAL COMMENTS

In order to present the OfJice of Inspector General’s comments to the Bureau of Land Management ‘s “Chronology -
Del Webb Lund Exchange” (Attachment I to Appendix I), we have replicated the Bureau ‘s comments except that
names of individuals have been replaced with their official titles or other designations. This appendix provides
discussions of our disagreement or additional clarification of the facts in the Bureau’s Attachment 1. If the
information in Attachment I did not affect the facts and concIusions presented in our report, we did not comment
accordingly,
                                                                            Office of Inspector General Comments
                  Bureau Chronologv                                              and Suuulemental Information


 September   29,1994                                           September   29,1994
 Initial exchange proposal made by Del Webb.                   Del Webb’s exchange proposal identified a solid block of Federal land in
                                                               the Las Vegas Valley that Del Webb sought to acquire (approximately
                                                               5,000 acres), but the proposal did not identify any specific private lands
                                                               offered in exchange.

                                                               September   29,1995
                                                               The Associate District Manager approved a feasibility report for the
                                                               exchange which stated that Del Webb had selected 4,975 acres of public
                                                               land and that the exchange would be completed in phases, of which each
                                                               phase would consist of about 1,OOO-acreparcels and would be exchanged
                                                               over a period of 3 to 7 years.

 November    27,199s                                           November    27.1995
 The Nevada BLM State Director forwards by letter a draft      The draft agreement also stated that the Bureau “or other benefitting Federal
 “Agreement to Initiate Exchange” to Del Webb, that provides   agency will an-ange with a contractor to prepare an appraisal of the selected
 that the Bureau will appraise the private and Federal lands   lands for each phase within 90 days of the initiation of that phase of the
 involved in the proposed exchange.                            exchange.’

                                                               November    30,199s
                                                               Del Webb’s representative advised the Las Vegas District Manager and the
                                                               Associate District Manager that Del Webb was having an appraisal
                                                               performed on the selected public land.




                                                                   27
                                                                                                                APPENDIX 2
                                                                                                                 Page2of15

                                                                               Office of Inspector General Comments
                     Bureau Chronologv                                              and SuDolemental Information


January    16,1996                                               January    16,1996
Del Webb responded by letter to the Nevada State Director        The Bureau’s statement confii          that Del Webb had already selected an
regarding the provisions of the draft exchange agreement         appraiser to estimate the value of the selected public land before the
between BLM and Del Webb. The letter stated: “the                “Agreement to Initiate Land Exchange” was approved by the Bureau.
proposed appraisal language in your draft is far more            Further, the Bureau did not provide i&on-nation on when Del Webb retained
restrictive than the plain language of the Federal Regulations   the services of the appraiser, identify the Bureau official who approved the
[43 CFR, Part 2201.3 and 3-l] and we believe the process         selection of this appraiser, or specify the date when the approval was g.kr~
will be aided immeasurably by adhering to federal regulations
rather than by restricting those regulations with a localized    We believe that Del Webb’s desire to expedite the appraisal in order to
policy not specifically designed to produce the best available   establish the price for all of the approximately 5,000 acres of public land
appraiser. ’ The letter was expressing concern that the BLM      it sought to acquire was understandable given the rapid increases in land
would not promptly start the appraisal process and that Del      prices in the Las Vegas area. However, we found that Del Webb did not
Webb’s appraiser was better qualified than any appraiser on      have suflicient offered property available to exchange for all of the selected
BLM Nevada’s list of qualified appraisers. Del Webb              public land. For example, even after the Bureau approved an appraised
anticipated having an appraisal completed by early March         value for the selected public land on April 8,1997, almost 15 months after
1996; BLM’s timing would have been later.                        the date of Del Webb’s letter to the Nevada State Director, the Bureau was
                                                                 able to accept only four properties valued at about %11 million in the initial
                                                                 exchange transaction. Accordingly, we do not believe that the Bureau’s
                                                                 Washington O&e was justified in its acceptance of the purported urgency
                                                                 of the appraisal or in its actions to facilitate completion and review of an
                                                                 appraisal of the entire Federal parcel.

February   2,1996                                                February   2,1996
Upon the advice of the Washington Office, Nevada State           We agree that Bureau regulations authorize Bureau offkials to allow
Director      signs revised “Agreement to Initiate Land          exchange proponents to appraise exchange lands. The authorized officials
Exchange” for Del Webb land exchange.             Ageement       for this exchange, the State Director and the State Chief Appraiser, acting
provides for Del Webb to assist in the exchange by preparing     in accordance with the authority delegated to them in Sections 1203 and
several of the required documents and studies, including         93 10 of the Bureau Manual, had previously established and complied with
appraisal reports. Basically, BLM agreed with Del Webb           a policy that the State Office would obtain its own appraisals of the public
that the regulations provide for the exchange proponent to       land. Their policy was also in compliance with the law. Given the
appraise the lands, subject to BLM review. BLM felt that the     significant interest in Nevada exchanges and the “very speculative and
contracting appraiser selected by Del Webb could do as good      volatile nature of land values in the Las Vegas area” cited by the Director
a job as a BLM appraiser.                                        in his response to the dr& report, we believe that the Nevada State Office’s
                                                                 policy was a valid and reasonable method for providing the Bureau’s
                                                                 authorized officers with an acceptable level of confidence in the appraised
                                                                 value of lands to be exchanged. However, we believe that the Washington
                                                                 Office’s advice that Del Webb should be allowed to use the appraiser raised
                                                                 concerns that Del Webb was exerting undue influence over the exchange.




                                                                    28
                                                                                                             APPENDIX 2
                                                                                                              Page3 of 15

                                                                              Office of Inspector General Comments
                  Bureau Chronolow                                                 and Suwlemental Information


March &I996                                                     March 5,1996
Associate District Manager and Project Lead, and BLM            When using a new appraiser on an appraisal assignment, the Bureau State
Nevada Chief Appraiser and BLM Arizona Chief Appraiser,         Chief Appraiser meets with the appraiser before work begins to ensure that
meet in Phoenix, Arizona with the Del Webb Appraiser and        the appraiser has a thorough understanding of the scope of the work and of
Del Webb representatives. The purpose of the meeting is to      the “Uniform Appraisal Standards for Federal Land Acquisitions,” which is
discuss instructions for completion of the appraisal report.    required to be complied with in Federal land acquisitions and exchanges
The Nevada State Chief Appraiser expresses concern with         (private sector appraisers are not subject to these requirements). The
Del Webb’s appraiser and the Del Webb representatives over      Nevada State Chief Appraiser, the Arizona State Chief Appraiser, and the
use of the “Cost Development Approach,” a valuation method      Associate District Manager stated that their impression a&r the meeting
proposed to be used by the Del Webb appraiser.                  was that Del Webb’s appraiser had completed most of his work and was
                                                                not interested in expending additional effort to develop a substantive
                                                                comparable sales analysis.

March 14,1996                                                   March 14,1996
Del Webb’s Appraiser completes appraisal, based upon a          Del Webb’s appraiser completed his appraisal using the more complex
“Cost Development Approach,” for Del Webb for 5,312.S           development approach in only 9 days afler the appraisal meeting with the
acres of selected lands in the proposed exchange.               Nevada Chief Appraiser and other Bureau representatives. Although there
                                                                are no established time fi-ames for conducting appraisals, the second
                                                                appraisal of the Bureau land required about 8 weeks to complete.
                                                                Consequently, we believe that Del Webb’s appraiser had substantially
                                                                completed this assignment before the March 5, 1996, meeting with Bureau
                                                                officials.

March 2551996                                                   March 25,1996
(Approximate date) A conference call was held involving         The tiormation presented in the Bureau’s chronology for March 25,1996,
Deputy Director, Washington Oflice Chief Appraiser, Deputy      conflicts with information we obtained during the audit and omits other
State Director-Resources and Associate State Director. The      relevant information about the meeting. The Nevada State Director, the
purpose of the call was to discuss options for reviewing the    Associate State Director, and the Deputy State Director-Resources told us
appraisal.    During the course of the conversation, the        that Nevada officials initiated this conference call just before a scheduled
Associate State Director informed the Deputy Director and       meeting between the Deputy Director and Del Webb’s representative
the Washington Office Chief Appraiser that Nevada had           because Del Webb wanted to select and hire an appraiser to review the
decided to remove the BLM Nevada State Chief Appraiser          appraisal report prepared by Del Webb’s appraiser. Further, the Deputy
from the appraisal review responsibilities because of his       State Director - Resources said that she told the Deputy Director that there
possible lack of objectivity to the appraisal process and       was no evidence to support Del Webb’s assertions against the State Chief
perceived poor working relationships with Del Webb. The         Appraiser but that if the Washington Office decided to remove the State
Deputy Director and the Washington Office Chief Appraiser       Chief Appraiser &om the Del Webb appraisal, there were other qualified
concurred with this decision. (Note: The BLM Nevada State       Bureau State Chief Appraisers who should perform the review. The Deputy
Chief Appraiser was not removed from his job--just the Del      State Director - Resources also said that the Deputy Director stated that he
Webb exchange process.) It was concluded that it would be       would not make an immediate decision on the appraisal review.
very diEcult to find another BLM appraiser with the
expertise and time to conduct this review. BLM had recently     The Bureau’s chronology does not note that Del Webb’s representative
lost appraisal staff in several states, existing workload in    directly participated in the conference call. However, the Deputy State
other states was perceived as heavy, and BLM did not have       Director - Resources informed us that after the initial discussion between
the level of expertise for the appraisal of of these types of   the Bureau’s Nevada State Ofice and the Washington Office, Del Webb’s
property. Additionally appraiser f?om other state offices are   representative, who was waiting to meet the Deputy Director, was brought
                                                                into the meeting Del Webb’s representative stated that Del Webb did not



                                                                   29
                                                                                                               APPENDIX 2
                                                                                                                Page 4 of 15

                                                                              Office of Inspector General Comments
                  Bureau Chronolow                                                 and Suwlemental Information


March 25,1996     (continued)                                    March 25,19%       (continued)
generally uncomfortable in assisting another state to provide    want the Nevada Chief Appraiser to perform the review because he was
an impartial review of appraisals for another Chief              “biased” and did not want any other Bureau State Chief Appraisers to
Appraiser.     Obtaining BLM in-house appraisal review           perform the review because Del Webb did not believe that they were
expertise would have added additional delay in the land          qualified to evaluate a complex development approach appraisal. The
exchange processing. As a solution to this problem, the          Deputy Director said at the meeting that the Bureau would contract for an
Washington Office Chief Appraiser pointed out that the           appraisal review.
regulations authorized the use of a contract review appraiser.
The Deputy Director approved the use of this approach since      The Nevada State Director told us that she remained adamant that a Bureau
the Washington Office was unable to provide another              State Chief Appraiser was needed to review and approve the value of the
appraiser from within the Bureau.                                selected Federal land. We believe that the concerns expressed by the
                                                                 Nevada State Director were valid because the use of a Bureau State Chief
                                                                 Appraiser to perform the appraisal review would have enabled the Bureau
                                                                 to maintain proper oversight of the exchange.

                                                                 The Bureau’s chronology states that the Nevada State Chief Appraiser was
                                                                 removed ‘because of his possible lack of objectivity to the appraisal process
                                                                 and perceived poor working relationships with Del Webb. ” However, as
                                                                 previously stated in our audit report, we found no evidence to support the
                                                                 allegations in the exchange file records; in the State Chief Appraiser’s
                                                                 performance evaluations; or in our interviews with the Associate District
                                                                 Manager and Arizona Chief Appraiser, both of whom also attended the
                                                                 March 5, 1996, meeting with Del Webb’s appraiser and representatives.

                                                                 March 26,1996
                                                                 Del Webb’s representative sent a memorandum to the Washington Off&e
                                                                 Chief Appraiser requesting specific language to be included in the scope of
                                                                 work for the Bureau’s appraisal review contract which stated that any
                                                                 written or verbal communication between the Bureau’s contract review
                                                                 appraiser and Bureau employees was precluded unless Del Webb’s
                                                                 representatives also participated. In addition, according to Del Webb’s
                                                                 language for the proposed scope of work, the Washington O&e Chief
                                                                 Appraiser would have been the only Bureau official allowed to
                                                                 communicate with the contractor. The requested language was included in
                                                                 the draft scope of work prepared by the Washington Office Chief Appraiser.




                                                                    30
                                                                                                            APPENDIX 2
                                                                                                             Page5 of 15

                                                                             Office of Inspector General Comments
                 Bureau Chronolo~                                                 and Suwlemental Information


March 21,1996                                                 March 27,1996
Washington Office Chief Appraiser conducted telephone         Records from the Washington O&e Chief Appraiser indicated that the
interviews with six prospective review appraisers. The IG’s   Chief Appraiser made telephone calls to seven different appraisal
preliminary draft says five prospective contractors were      contractors but conducted telephone interviews with only five of these
contacted (footnote, page 14).                                contractors.  Therefore, we do not believe that our report needs to be
                                                              corrected.

                                                              In addition, the Bureau’s chronology did not identify all the parties involved
                                                              in the telephone interviews. The Washington Office Chief Appraiser told
                                                              us that Del Webb’s representatives were allowed to “listen in” as the Chief
                                                              Appraiser conducted these interviews.

                                                              March 28,1996
                                                              The Washington Office Chief Appraiser tentatively selected the appraisal
                                                              firm nominated by Del Webb to perform the appraisal review.

                                                              March 29,1996
                                                              In a conference call with the Deputy Director, the Field Special Assistant
                                                              to the Director, and the Group Manager, Lands and Realty Group, the
                                                              Nevada State Director argued unsuccessfully “that a Bureau of Land
                                                              Management person should review the report.”

                                                              April 3,1996
                                                              Records of the conference call held to discuss the statement of work for the
                                                              appraisal review contract indicated that the State Director was concerned
                                                              about the statement of work. The areas of concern were (1) the number of
                                                              acres that could be legally conveyed at that time and (2) the involvement of
                                                              Del Webb’s representatives. The Washington Of&e Chief Appraiser stated
                                                              that he ’ underestimated” the State Director’s concern that Del Webb was
                                                              trying to “unduly intluence the valuation and exchange process. ’

                                                              April 5,1996
                                                              The Washington OtTice Chief Appraiser changed the proposed statement of
                                                              work to eliminate Del Webb’s language regarding restrictions on
                                                              communications (see March 26,1996, entry).

                                                              April 8,1996
                                                              The Washington Offtce Chief Appraiser discussed the changes in the
                                                              statement of work with Del Webb’s representatives. The records of the
                                                              Washington Offtce Chief Appraiser stated that Del Webb’s representative
                                                              felt that the Bureau reneged on its earlier agreement with Del Webb
                                                              regarding the statement of work




                                                                 31
                                                                                                              APPENDIX 2
                                                                                                               Page6of 15

                                                                               Office of Inspector General Comments
                  Bureau Chronoloav                                                 and SumAemental Information


                                                                April 11,1996
                                                                Records of the Washington Office Chief Appraiser stated that Del Webb’s
                                                                representatives “requested a conference call to arbitrate their being taken
                                                                out of the statement of work.” The conference call included the Deputy
                                                                Director, the Field Special Assistant to the Director, the Washington Office
                                                                Chief Appraiser, the Deputy State Director-Resources, the Las Vegas
                                                                District Manager, and Del Webb’s representatives. The Washington Office
                                                                Chief Appraiser’s records stated that Del Webb’s representative “was
                                                                complaining” that because of earlier statements by the Nevada State Chief
                                                                Appraiser and manbas of the State Office, it was essential that Del Webb’s
                                                                representatives be involved in observing discussions with the review
                                                                appraiser to protect their client.

April 25,1996                                                   April 25,1996
On April 25, 1996, the Associate District Manager for the       No comment.
Las Vegas District and the Washington O&X Chief
Appraiser met with the prospective contract reviewers in
Phoenix, Arizona. Based on the interview and discussion of
the statement of work, a contract was awarded to the contract
review appraisers following appropriate procurement
procedures through the BLM National Business Center
(Denver) on May 10,1996.

May lo,1996                                                     May lo,1996
Award contract to contact review appraisers to review the       We have modified our report to recogmze that this action was executed
Del Webb Appraiser’s report. The Contracting Officer            using the simplified acquisition procedures in the Federal Acquisition
complied with all requirements for simplified acquisitions in   Regulation. However, our concern is that the Bureau awarded this contract
Federal Acquisition Regulations (FAR) Part 13.106-2(d)(3),      to a Del Webb-nominated appraiser on the basis of unusual and compelling
which only required a notation to explain the absence of        urgency and cited as its justification the need “to avoid greater expense to
competition. The award in the amount of $12,500 was for         the United States and weaken the integrity of the appraisal report.” The
less than the simplified acquisition threshold regarding        Bureau did not substantiate the urgency of this contract during the audit or
competition. The Preliminary Drafr IG Report (p. 14) says       in its response and chronology.
FAR was not complied with.          BLM also prepared a
Justification for Other than Full and Open Competition
(JOFOC), in accordance with portions of the Part 6.303-2
regulations. The JOFOC authorized the Contracting Of&er
to proceed with a “Sole Source” acquisition.

July 16,1996                                                    July 16,1996
Memorandum from Washington Ofice Chief Appraiser to             The Washington O&e Chief Appraiser resolved any outstanding value
Las Vegas District Manager, providing a copy of the initial     issues by accepting the appraisal review, agreeing that the appraisal report
appraisal review report prepared by the contract review         and analysis reasonably supported the appraiser’s $43 million value, and
appraisers, Washington Office Chief Appraiser advises the       forwarding the appraisal and appraisal review to the District Manager for
Las Vegas District Manager that some additional sales           approval (see December 9, 1996, entry).
transactions are being reviewed which may provide some
comparable sales information, and that the appraisal review
report may need to be updated and may have an impact upon
the appraised value.


                                                                    32
                                                                                                                APPENDIX 2
                                                                                                                 Page7of15

                                                                                Office of Inspector General Comments
                     Bureau Cbronologv                                               and Sutwlemental Information


September    lo,1996                                              September    lo,1996
Letter from Acting Deputy Director to Del Webb, advising          No comment.
Del Webb that appraisals may need to be revised if additional
comparable sales information becomes available prior to final
actions on the land exchange, to ensure that appraisals reflect
current market value.

October    14,1996                                                October 14,1996
Del Webb’s appraiser completes update of earlier appraisal,       As disccussedin the report, this appraisal relied mainly on the development
including some comparison with comparable sales. Property         approach, which the “Uniform Appraisal Standards for Federal Land
appraised includes 4,776 acres and a separate value for Phase     Acquisitions” states should be used only as a last resort or as a check on
I only. Appraiser concludes %43,000,000 for entire property,      values derived by the more reliable comparable sales approach.
and %20,285,000 for Phase I only.

                                                                  October 31,1996
                                                                  An attachment to a December 17,1996, letter to Senator McCain from the
                                                                  Chaitman of the Board and Chief Executive Officer of Del Webb states: “At
                                                                  an October 3 1 meeting, one of Del Webb’s representatives asked directly
                                                                  whether ‘we had agreement on the Phase I and Phase II land values’ as
                                                                  agreed to by the four appraisers. Both the Authorized Officer and the
                                                                  [washington O&X] Chief Appraiser answered ‘yes.’ Webb was told [by
                                                                  these ofGals] that the contract reviewers would be providing further
                                                                  intbrmation on the comparable sales discussed in the appraisal, but that the
                                                                  numbers [$43 million] were firm.”

November    4,1996                                                November    4,1996
Decision Record and Notice of Decision issued on the              The Bureau stated in its decision that the exchange was in the public interest
proposed land exchange, which provides for a 45 day public        and should proceed immediately. This followed the above-noted October
comment and protest period.                                       3 1, 1996, meeting between the Bureau’s authorized officer, Del Webb’s
                                                                  representatives, and the appraisers. We believe this indicates that the
                                                                  Bureau was willing to use the $43 million appraised value as the basis for
                                                                  proceeding with the exchange.

November    21,1996                                               November    2 I,1996
E-Mail message from Washington Office Chief Appraiser to          We believe that the Bureau’s comments regarding the Washington O&X
Washington     Office Manager summarizing telephone               Chief Appraiser’s “expressed concern with earlier drafts” were not
conversations with Las Vegas District Manager and later with      consistent with his actions, since he accepted the appraisal review, agreed
Del Webb’s representatives.         The District Manager          with the reviewers that the appraisal report and analysis reasonably
expressed concern the values were too low and the report          supported the $43 million value, and forwarded the appraisal and appraisal
fails to use adequate comparable sales information. The           review to the Las Vegas District Manager for approval (see December 9,
Washington Office Chief Appraiser expressed concern with          1996, entry).
earlier d&s prepared by the reviewers.

November    27,1996                                               November    27,1996
Protest letter from Sierra Club raises concern regarding the      No comment
appraisal of lands and indicates the lands may be under
valued. Requests an opportunity to review the appraisals.




                                                                      33
                                                                                                                 APPENDIX 2
                                                                                                                  Page8of15

                                                                                 Office of Inspector General Comments
                   Bureau Chronolosv                                                  and SuDDlemental Information


December    5,1996                                                 December 5,1996
Contract review appraisers submit appraisal review report.         No comment.
Their review includes reference to 10 potential comparable
sales. The reviewers concluded, however, that the additional
market analysis supported the Del Webb appraiser’s opinion
of value.

December    9,1996                                                 December 9,1996
The Washington Office Chief Appraiser, who was the                 In its chronology, the Bureau stated that the Washington Office Chief
contracting officer representative (COR), accepts the              Appraiser “accepts the appraisal review report for purposes of authorizing
appraisal review report for purposes of authorizing payment        payment under the contract only. ”When authorizing payment to contractors,
under the contract only. The appraisal review prepared by          contracting officer’s representatives are required to ensure that the services
the contract review appraisers was forwarded to the Las            and prcducts provided to the government meet the requirements established
Vegas District Manager for approval. It was never approved         in the purchase order. We believe that if the Washington Office Chief
by either the Las Vegas District Manager or the State              Appraiser accepted work that was not in firlI conformance with the
Director.                                                          “Standards,” he did not fultill his duties as the contracting officer’s
                                                                   representative.    In the evaluation report (page 4), the Washington Office
Washington Offtce Chief Appraiser, in his evaluation of the        Chief Appraiser states, “I agree with the reviewers that the appraisal report
appraisal review report forwarded to Las Vegas District            and the analysis reasonably supports the appraisers conclusion of value.”
Manager, raised four issues: 1) A perception that the              In addition, we believe that the Chief Appraiser’s statement that “the
appraised values are too low; 2) agreement by the reviewers        appraisal review is acceptable and is being forwarded to the authorized
that the value per acre for Phase 1 is lower than for the entire   officer for their approval” indicates a recommendation to the authorized
tract; 3) the review report assumes the sale of the entire         officer that the $43 million value should be used for the exchange.
property and does not consider any lapse in time between the
first and final transactions; 4) the review report assumes the     The four issues discussed by the Washington Oflice Chief Appraiser in his
land is free and clear of all encumbrances including mining        evaluation report involve significant deficiencies in the appraisal and
claims and that any costs to clear assumed by a prospective        appraisal review.      As such, we believe the Washington Office Chief
buyer would be a reduction in value. Also included in the          Appraiser should not have accepted the appraisal review and forwarded it
Washington Office Chief Appraiser’s evaluation is a                to the authorized officer for his approval.
discussion of an option to prepare an additional appraisal or
appraisal reviews.

December    lo,1996                                                December    lo,1996
Protest letter from private citizen requesting an opportunity      No comment.
to review the appraisal reports and asserts that a competitive
sale of the lands would increase values.




                                                                      34
                                                                                                             APPENDIX 2
                                                                                                              Page9of15

                                                                               Office of Inspector General Comments
                  Bureau Chronolofzv                                                and SuDDlemental Information


December    12,1996                                              December    12,1996
OIG notifies the Bureau of intent to perform a follow up audit   The announcement memorandum for our audit stated that the objective of
of its Nevada land exchanges. This notification gave no          the audit would be “to determine whether the Nevada State OfIice, Bureau
indication that the ongoing Del Webb land exchange would         of Land Management, has complied with applicable laws and regulations
be included in the follow up audit. The notification indicated   during all nhases of the land exchange orocess and whether the Bureau has
only that “recently completed exchanges” would be reviewed.      received fair market value for the lands included in recently completed
The Del Webb exchange was not completed at this time.            exchanges.” (Emphasis added.)

                                                                 December    13,1996
                                                                 The Deputy Director asked the Office of Inspector General whether our
                                                                 audit would include ongoing exchanges and, in particular, if we would
                                                                 include the Del Webb exchange. During a telephone conversation, the
                                                                 auditor-in-charge of the followup audit informed the Bureau’s Audit Liaison
                                                                 Officer that we intended to review all exchanges completed since our last
                                                                 audit and all exchanges currently in process, including the Del Webb
                                                                 exchange.

December    16,1996                                              December    16,1996
Letter from Senator McCain to Assistant Secretary, Land and      No comment.
Minerals Management requesting information on the status of
the Del Webb land exchange.

December    17,1996                                              December    17,1996
Contract review appraisers provide a presentation in the         No comment.
BLM Washington OfIIce on the appraisal review. Attendees
were Department, BLM Headquarters, and field managers
and staff, including Las Vegas District Manager and Nevada
State Director.




                                                                    35
                                                                                                                   APPENDIX 2
                                                                                                                   Page 10 of 15

                                                                                  Office of Inspector Gent+ Comments
                   Bureau Chronologv                                                   and Swulemental Information


December     l&l996                                                 December     18,1996
 Following the December 17 meeting, Las Vegas District              A meeting was held on this date in the Bureau’s Washington Office to
Manager prepares handwritten comments critiquing Del                discuss the status of the Del Webb exchange. Attendees consisted of the
 Webb appraiser’s appraisal report and review prepared by           Deputy Director, the Nevada State Director, the Las Vegas District
contract review appraisers. Copies of these comments were           Manager, a representative of the Assistant Secretary for Lands and Minerals
 given to Washington Office Chief Appraiser and the contract        Management, and the Washington Otlice Chief Appraiser. According to the
review appraisers. The major issues raised by the Las Vegas         Chief Appraiser’s notes of the meeting, discussions related to our followup
 District Manager regarded the cost approach for the                audit included the following:
appraisal, unsupported adjustments to price, and poor
justification for the discount rate applied to the appraisal.           - “IG Spector General] Audit -- We have indications from the IG that
                                                                    this audit may focus on appraisals and perhaps specifically the appraisal
                                                                    associated with the Del Webb exchange. The Bureau of Land Management
                                                                    will work with the Inspector General to schedule a meeting for the week of
                                                                    January 6,1997 to discuss the subject of the audit in order to determine how
                                                                    to proceed with the Del Webb exchange.”

                                                                         - “Appraisal -- The appraisal and the Review of the Appraisal were
                                                                    delivered to the State Director on December 10, 1996. These documents
                                                                    are under review and a decision by the authorized officer will be made
                                                                    following the meeting with the IG. ”

                                                                        - “The analysis of the appraisal, analysis and resolution of the protests,
                                                                    and all other work associated with the Del Webb exchange will proceed.
                                                                    No decisions will be made until after the meeting with the IG.”

December     18,1996                                                December    18,1996
Letter l?om Senator Reid to Assistant Secretary, Land and           No comment.
Minerals Management requesting information on the status of
the Del Webb land exchange.

December     19,1996                                                December 19,1996
Protest letter Tom Howard Hughes Corporation expressed              No comment.
concern that the appraisal documents were unavailable for
review, and that values of the exchange lands are unknown

December    19,1996                                                 December    19,1996
Public comment period on the Notice of Decision ends.               No comment.
Seven protests are received on the land exchange. Three of
these protests raise issues related to the appraisal of the lands
involved in the exchange. (See the November 27, 1996,
December 10,1996, and December 19,1996 entries above.)




                                                                       36
                                                                                                                APPENDIX 2
                                                                                                                Page 11 of 15

                                                                                 Office of Inspector General Comments
                    Bureau Chronolom                                                  and Suwlemental Information


December    23,1996                                                December    23,1996
Washington Office Chief Appraiser sends an electronic              The Washington Office Chief Appraiser stated in his December 9,1996,
message to Nevada State Director, Las Vegas District               evaluation report that he identified significant problems with the appraisal
Manager and others as a follow up to the Las Vegas District        and review that could warrant obtaining a new appraisal. However, he
Manager’s comments on the appraisal review. The Las Vegas          concurred with the reviewer’s acceptance of the value and forwarded the
District Manager’s comments were also forwarded to                 appraisal and review to the authorized officer for approval. Then, in the
contract review appraisers with a request for the contract         December 23, 1996, electronic mail message cited by the Bureau, the
review appraisers to respond to the comments. Washington           Washington Office Chief Appraiser stated that the Bureau should obtain a
Office Chief Appraiser concludes in the electronic message         new appraisal which relies primarily on a market analysis. However, in a
that: “Therefore, I still think we need an appraisal that relies   subsequent message to the review appraisers, the Washington Office Chief
primarily on a market analysis, which to the extent may be         Appraiser stated that he wanted to “resurrect the appraisal and appraisal
appropriate, includes a reference to the appraisal and             review” and that he did “not want management to be displeased with our
appraisal review.”                                                 efforts and flirt with trashing the whole thing. ’

December    23,1996                                                December    23,1996
In response to the December 16, 1996, letter from Senator          No comment.
McCain and December 18, 1996, letter from Senator Reid,
the Deputy Director writes to [the Senators] regarding
BLM’s progress in processing the Del Webb land exchange.
The letter states that “we intend to follow all applicable
statutes, regulations, and procedures in processing this
exchange and to continue to involve the public, as
appropriate, to ensure that any final exchange transaction
serves the public interest.” He also states: “Another factor
which may potentially al%ct the timing of the Del Webb
exchange is the investigation of land exchange activities in
Nevada by the O&z of Inspector General (IG).’ The thought
here is that if the IG discovered a serious deficiency, BLM
would have taken the time to address and correct the
problem.

                                                                   December    31,1996
                                                                   The Washington Office Chief Appraiser provided the contract review
                                                                   appraisers with his suggested responses to a portion of the District
                                                                   Manager’s December 18,1996, comments on the appraisal and appraisal
                                                                   review.

January    2,1997                                                  January 2,1997
The Chief Executive Officer, Del Webb Corporation writes           No comment.
Senator McCain criticizing BLM’s handling of the land
exchange. The letter references an upcoming meeting on
January 7.




                                                                       37
                                                                                                       APPENDIX 2
                                                                                                       Page 12 of 15

                                                                                Office of Inspector General Comments
                    Bureau Chronoloprv                                               and Suwlemental Information


January   6,1997                                                  January   6,1997
The contract review appraiser respond to the Las Vegas            No comment.
District Manager’s comments regarding the appraisal review
report, including the concerns regarding the development cost
approach for the appraisal. The review appraisers state:
“This approach has current market acceptance, is very
reliable given the depth of data available and provides subject
specific value indicators which cannot be derived l?om the
sales data. ”

January   7 and 8,1997                                            January   7 and 8.1997
The Las Vegas District Manager and Nevada State Director          No comment,
provide a briefmg paper for discussions in meetings with
BLM Wa&ngton OtIice, Solicitor’s Office and the Assistant
Secretary’s O&e of several issues concerning the appraisal
report, the procedural error of not providing the public an
opportunity to comment on the appraisal during the public
comment period of the Notice of Decision, ledger imbalance,
OIG audit, resolution of protests, and Nevada Power appeal.
In a description of options, the Las Vegas District Manager
indicates Washington Office Chief Appraiser recommends
ordering new appraisal. Justification is the appraiser would
be independent from first effort, fresh set of eyes, and an
opportunity to clarity instructions.

January   7,1997                                                  January   7,1997
OIG holds entrance conference on the followup audit with          No comment.
BLM officials and informs BLM that the Del Webb land
exchange will be included within the scope of audit.

January   14,1997                                                 January   14,1997
Letter from Deputy Director to Del Webb’s Chief Executive         No comment.
Officer    summarizing decisions made at a January 7-8
meeting of BLM and DO1 oflicials. Officials discussed
protests in response to the Notice of Decision (NOD)
published on November 4, 1996. It was agreed a second
appraisal would be ordered, a supplemental environmental
assessment would be prepared, a new NOD would be issued,
and property would be exchanged subject to Nevada Power
right-of-way.

January   21 and 22,1997                                          January   21 and 22,1997
Meetings with Del Webb in Washington, DC to address               No comment.
implementation of the January 14 letter.




                                                                     38
                                                                                                               APPENDIX 2
                                                                                                               Page 13 of 15

                                                                              Office of Inspector General Comments
                    Bureau Chronoloe;v                                             and SuDDlemental Information


January   27,1997                                                January   27,1997
BLM contracts for a second appraisal. The existing BLM           The Bureau’s contract for a second appraisal required the appraisers to
Nevada contract list had only one appraiser from the Las         consider the results of the previous appraisal and appraisal review.
Vegas area and we were concerned regarding the quality of        Specifically, we noted that the contract statement of work prepared by the
his previous work and reports. Because the BLM Nevada            Washington Office Chief Appraiser included a requirement that the new
Chief Appraiser had previously been removed from the             appraisal “shall consider information, assumptions, and conclusions reached
appraisal work for this exchange (March 25, 1996 decision),      by pel Webb’s appraiser] in an appraisal report dated October 14,1996.”
there was no consideration to bring him into the process         The statement of work also required that the appraiser “consider
again. The BLM decided to procure appraisal services from        information, assumptions, and conclusions reached by [contract review
a reputable local firm not on the current contracting list. It   appraisers] in their December 5, 1996 review of the [Del Webb’s
was also decided by the State Director and Deputy Director       appraiser’s] appraisal report.”
that the Washington O&X Chief Appraiser would review the
appraisal report. The BLM contracted with a top Las Vegas        January   27,1997
accounting firm (second appraisers) that had an excellent        Solicitor’s O&e correspondence on this date stated that “specific concerns”
appraisal staff.                                                 remained relative to the purpose and scope of the second appraisal and
                                                                 appraisal review.

                                                                 During meetings with Del Webb’s representatives, the Washington Of&
                                                                 Chief Appraiser had stated that “the second appraisers would not start with
                                                                 a clean slate, but would be instructed to ‘consider’ the first appraisal.” In
                                                                 the January 27, 1997, correspondence, a Solicitor’s Office attorney
                                                                 disagreed with this approach, stating that “the purpose of the second
                                                                 appraisal is to truly provide a ‘second opinion’ on the public land value, and
                                                                 to give decision makers information they are comfortable with. This should
                                                                 be clearly communicated to the second appraisers. ”

                                                                 The Solicitor’s Offtce attorney was also concerned about the possibility of
                                                                 receiving another development cost approach appraisal.              In the
                                                                 correspondence, the attorney stated: “Many in the Department are
                                                                 uncomfortable with the development cost approach, and the regulations
                                                                 show a clear preference for the market approach or comparable sales. This
                                                                 regulatory preference ought to be communicated to the appraiser, who
                                                                 should be instructed that if another method is used, the appraiser should
                                                                 give a clear and thorough rationale for not using market information.”

                                                                 Finally, the Solicitor’s Office attorney was concerned with how the second
                                                                 appraisal would be reviewed. According to the correspondence, the
                                                                 Washington O&e Chief Appraiser had “expressed his belief that the same
                                                                 (outside) review appraisers should be used in the second as were used in the
                                                                 6rst.” The Solicitor’s Office attorney disagreed with this approach, stating
                                                                 that “an in-house review is called for to meet the goals outlined in paragraph
                                                                 one [to provide a second opinion of value and to give decision makers
                                                                 information they would be comfortable with].”




                                                                     39
                                                                                                          APPENDIX 2
                                                                                                          Page 14 of 15

                                                                             Office of Inspector General Comments
                     Bureau Chronolonv                                            and Suuplemental Information


January    30,1997                                            January    30,1997
Deputy Director sends a follow-up letter to the Del Webb      No comment.
Chief Executive Officer summarizing meetings with his staff
on January 21-22, 1997. The meetings put in place
procedural steps implementing decisions made at the January
7-8, 1997 meeting. A timetable prepared by Las Vegas
District Manager is attached to the letter.

February    25,1997                                           February    25,1997
Meeting with Del Webb in Washington, DC to discuss            No comment.
progress with the exchange.

                                                              March 4,1997
                                                              Based on a February 20, 1997, request by the Washington Office Chief
                                                              Appraiser, the contracting officer issued a technical instruction which
                                                              amended the contract by eliminating the mquirement that the new appraisers
                                                              should meet with the previous appraisers regarding their analyses and
                                                              conclusions and instructing the new appraisers to state in their appraisal
                                                              report that their conclusions reflected their own “independent judgement.”


March 21,1997                                                 March 21,1997
BLM receives the second appraisal.     The appraiser’s        We agree that the appraisers based their conclusion of value on the sales
conclusions were based on a comparable sale analysis and      comparison approach ($52.1 million for the entire 4,756-acre parcel
also evaluated and considered the Cost Development            assuming the exchange was consummated in two installments before the
Approach from the earlier appraisal.                          end of 1998 and $31.5 million for the 2,535.5-acre Phase I land only).
                                                              However, we noted that the appraisers evaluated and considered the cost
                                                              development approach from the earlier appraisal “at the request of the
                                                              client” (see. discussion of January 27, 1997, regarding contract language)
                                                              and that they concluded that “only the Sales Comparison Approach to value
                                                              was directly applicable in this analysis.”

March 31,1997                                                 March 31,1997
Washington Office Chief Appraiser accepts the appraisal       No comment.
report prepared by the contract appraiser.

April 8,1997                                                  April 8,1997
Approval of appraised value by the Las Vegas District         Nocomment.
Manager and Nevada State Director. BLM letter to Del
Webb providing copy of approved appraisal and offer of
$3 1.5 million for Phase I of the Del Webb exchange.

May 6,1997                                                    May 6,1997
Del Webb acceptance of offer.                                 No comment.




                                                                 40
                                                                                                         APPENDIX 2
                                                                                                         Page 15 of 15

                                                                                  Office of Inspector General Comments
                   Bureau Chronology                                                   and SuDDlemental Information


May 21,1997                                                        May 21,1997
New Notice of Decision issued for Phase I of the Del Webb          No comment.
exchange. Notice of Decision provides for public review of
the approved appraisal.

July 29,1997                                                       July 29,1997
Title transfers and patents issued on the initial land transfers   No comment.
of Phase I-A of the Del Webb land exchange.




                                                                      41
                ILLEGAL OR WASTEFUL ACTMTIES
                    SHOULD BE REPORTED TO
              THE OFFICE OF INSPECTOR GENEIWL BY:


Sending written documents     to:                                carring:


                     Within the Continental United States

U.S. Department of the Interior                            Our 24-hour
Office of Inspector General                                Telephone HOTLINE
1849 C Street, N.W.                                        l-800-424-508 1 or
Mail Stop 5341                                             (202) 208-5300
Washington, D.C. 20240


                                                           TDD for hearing impaired
                                                           (202) 208-2420 or
                                                           l-800-354-0996


                    Outside the Continental United States


                                     Caribbean Region

U.S. Department of the Interior                            (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
1550 Wilson Boulevard
Suite 410
Arlington, Virginia 22209


                                    North Pacific Retion

U.S. Department of the Interior                            (700) 550-7428 or
Office of Inspector General                                COMM g-011-671-472-7279
North Pacific Region
238 Archbishop F.C. FIores Street
Suite 807, PDN Building
Agana, Guam 96910
   *I   TollFree Numbers:
   :      l-800-424-5081           %
   :                               r
          TDD l-800-354-0996
   :                               i
  :                                5
  :     FTS/Commercial Numbers:
  :      (202) 208-5300
  :      T'DD (202) 208-2420      E
  .                               m


  :
 :      1849 C Street, N.W.       E
        Mail Stop 5341            c.
  :     Washington, D.C. 20240
  ti
  ”
 :
 :
 m
 :
.:
:
:
.
:
 a
